<html>
<title> - FLASHING RED: THE STATE OF GLOBAL HUMANITARIAN AFFAIRS</title>
<body><pre>[Senate Hearing 115-760]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-760

                   FLASHING RED: THE STATE OF GLOBAL 
                            HUMANITARIAN AFFAIRS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            MARCH 22, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-856 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2
Gottlieb, Gregory C., Acting Assistant Administrator, Bureau of 
  Democracy, Conflict, and Humanitarian Assistance, United States 
  Agency for International Development, Washington, DC...........     4
    Prepared statement...........................................     5
Lindborg, Hon. Nancy, President, United States Institute of 
  Peace, Washington, DC..........................................    22
    Prepared statement...........................................    24
Daccord, Yves, Director-General, International Committee of the 
  Red Cross, Geneva, Switzerland.................................    28
    Prepared statement...........................................    30

              Additional Material Submitted for the Record

Responses of Gregory Gottlieb to Questions Submitted by Senator 
  Todd Young.....................................................    50
Response of Hon. Nancy Lindborg to Question Submitted by Senator 
  Todd Young.....................................................    53


                             (iii)        

 
         FLASHING RED: THE STATE OF GLOBAL HUMANITARIAN AFFAIRS

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Young, Cardin, 
Shaheen, Markey, and Merkley.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    Last month, the U.N. High Commissioner for Refugees and the 
executive director for the World Food Program issued a warning 
regarding severe food shortages sweeping across Africa. 
Humanitarian crises are expanding with famine now inflicting 
South Sudan and others threatening Somalia, Nigeria, and Yemen.
    Each of these is marked by misgovernance and conflict that 
worsens existing conditions and threatens to trigger the 
starvation and displacement of tens of millions of people.
    In South Sudan, conduct by President Kiir and the failure 
of the region to effectively engage with the political leaders 
in South Sudan has led to famine and atrocities.
    In Yemen, a country with chronic natural resource and food 
shortfalls, the crisis is aggravated by conflicts that have 
created severe obstacles to humanitarian access.
    In Somalia, al-Shabaab created insecurity, and lack of 
governing structures continue to threaten millions of Somalis.
    In Nigeria, Africa's largest country by population, 
millions in the northeast face starvation as Boko Haram 
violence has prevented most humanitarian access.
    When we consider the ongoing wars elsewhere in the Middle 
East, Eastern Europe, and South Asia, the world has experienced 
historic levels of displacement and emergency needs. Last year, 
there was an unprecedented 65 million people displaced, 
stateless, or otherwise in the need of humanitarian assistance, 
the highest number ever recorded. And this year, it is expected 
to reach 70 million people. Unbelievable.
    The fact that so many of these tragic situations are 
manmade demands that we look at how we use our policy tools to 
prevent and relieve such a catastrophe.
    Today's hearing is an opportunity to understand how these 
crises affect U.S. interests and review how we might better 
work to sustain life, support stability, and help communities 
become more resilient. It is also imperative that we discuss 
ways to stretch our aid dollars further through food aid 
reforms and efficiencies, feeding more people with the same 
level of funding.
    And I hope our committee can come together to support such 
reforms during next year's farm bill reauthorization.
    Finally, we must look at the instruments of our diplomatic, 
development, economic, and defense power, and determine how we 
might best put them to use in reversing this trend that leads 
to instability and threatens our interests.
    We thank our witnesses. I will introduce you shortly. And I 
want to turn to our distinguished ranking member, Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you so much for 
holding this hearing on the state of global humanitarian 
affairs.
    Yesterday, I joined the chairman with our counterparts in 
the House of Representatives as we acknowledged the sixth 
anniversary of the Syrian war and the atrocities that have been 
committed there and humanitarian needs.
    Today, we shift our attention, the same subject matter but 
to the 20 million people who are starving as a result of the 
famines in Yemen, Somalia, South Sudan, and Northern Nigeria.
    And we saw the faces of children who were murdered in 
Syria. We now see the faces of children who are stunted and are 
suffering as a result of the atrocities and tragedies in these 
countries.
    And we know that we have to do something about this. We 
know that America can do something about this.
    So I look forward to our witnesses giving us the current 
status but also challenging us to do more to alleviate the 
humanitarian needs.
    We know that these circumstances in these countries will 
lead to instability, breeding grounds for terrorists, and it 
leads to conflicts. So it is in our interests, not just from 
the humanitarian point of view, but from the national security 
issues, to do something about these circumstances.
    The tragedy is even made worse because political leaders in 
these countries are denying humanitarian access. They are not 
only causing a problem for their people. Then they are denying 
the international community access to try to deal with the 
aftermath.
    The South Sudanese Government recently said they want 
humanitarian workers to pay $10,000 for a visa. That is 
outrageous, and the international community needs to speak out.
    We also know that humanitarian convoys have been attacked 
as part of a conflict. That is a violation of war crimes, and 
it is a matter that cannot be allowed to continue.
    So, Mr. Chairman, I just really want to underscore the need 
for U.S. leadership. When I look at what has happened 
internationally, the status of select U.N. humanitarian 
appeals, global, we are at thirteen percent funded; Nigeria, 6 
percent funded; Somalia, 21 percent funded; South Sudan, 18 
percent funded; Yemen, 7 percent funded.
    If the United States is not in leadership, the 
international community is not going to respond. And as you 
pointed out, this is a circumstance where the famine has been 
enhanced or made possible through human action. This is not 
nature. This is what humans have done, and we can change that.
    So I look for U.S. leadership. But so far, what I have seen 
is President Trump being very silent on this issue. I have not 
heard very much. I have seen his executive order on 
immigration, which 100 national security experts, both 
Republican and Democrats, have condemned as being 
counterproductive to our national security and not befitting 
our great Nation.
    I do look at a budget that he has submitted that has a 28 
percent cut in foreign aid, and I am wondering how we can 
respond and show leadership and expect other countries to 
follow when the President has made our foreign assistance such 
a low priority.
    Mr. Chairman, I might be incorrect in this, but I think 
there is only one other agency treated as badly as foreign 
assistance in the President's budget, and that is our 
environment. So it really does speak to our priorities. The 
international community is looking at us, saying where are 
America's priorities if the President is submitting this type 
of budget?
    And then I just want to point out, as you have, that we can 
prevent these humanitarian disasters if we invest more in good 
governance, in anticorruption, in the building blocks so these 
countries can have stable governments that can help their own 
people, and we are cutting those programs in the President's 
budget.
    So I do look forward to our witnesses as to how we can be 
more effective in dealing with the crisis in Northern Africa 
and how America's leadership can lead the world to help those 
that are in real danger of literally losing their lives.
    The Chairman. Well, thank you. I had no idea that focusing 
on conflict in poor parts of the world would move to the 
direction that you just went. I think we all understand that 
these issues have been persisting for a long, long time, and we 
need to, certainly, show U.S. leadership.
    I will say our government funds one-third of the World Food 
Program and will continue to. And my guess is, at the end of 
the day, by the time Congress gets through having its say, we 
are going to be very involved and appropriately involved 
throughout the world, as we have been for years.
    I hope we will focus on the issue at hand. I do not think 
this has been created over the last 55 days and, certainly, I 
appreciate some of the sentiment, but, again, the issue is here 
we have millions of people that are starving due to conflicts 
in the region.
    And as my staff has pointed out so well, once these people 
are malnourished for a period of time, it actually affects 
their ability to function for the rest of their lives, so what 
we have happening in these countries is people--really, we are 
stunting the next generation of people who might lead 
innovation and do the kinds of things that are necessary to 
cause these countries to be successful.
    So for that reason, we certainly appreciate Mr. Gottlieb 
for being here. He is acting assistant administrator from USAID 
Bureau of Democracy, Conflict, and Humanitarian Assistance. 
Assistant Administrator Gottlieb manages the Office of Disaster 
Assistance and Food for Peace, two of the primary U.S. 
responders to international humanitarian emergencies with both 
food and nonfood assistance.
    We thank you so much for being here and glad we have 
someone to actually come testify as you are today. We look 
forward to that. And if you could summarize in about 5 minutes, 
I am sure there will be many questions from the panel. Thank 
you.

      STATEMENT OF GREGORY C. GOTTLIEB, ACTING ASSISTANT 
ADMINISTRATOR, BUREAU OF DEMOCRACY, CONFLICT, AND HUMANITARIAN 
ASSISTANCE, UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Mr. Gottlieb. Chairman Corker, Ranking Member Cardin, 
members of the committee, thank you for your continued support 
for humanitarian assistance, including convening this hearing.
    Today, we are confronted with massive humanitarian crises 
around the world, which demand immediate, substantial, and 
creative responses. There are more than 65 million people 
displaced today, numbers we have not seen since World War II.
    We are also facing the most serious food security crisis in 
the modern era. Famine likely occurred in parts of Nigeria late 
last year and was declared in South Sudan this year. Somalia 
and Yemen are likely to be next.
    Further complicating things, much of the humanitarian need 
today is manmade, a result of civil conflicts, instability, and 
a lack of solutions to political disputes.
    I have worked in humanitarian assistance for more than 30 
years in more than 40 countries across four continents, and I 
can say I have not seen anything of this scale in my career.
    Despite these challenges and thanks to generous support 
from Congress, the United States continues to be the world 
leader in humanitarian response. We at USAID strive to best 
utilize those resources to prevent, mitigate, and respond to 
humanitarian crises around the world. USAID leadership in this 
area demonstrates extraordinary global reach, influence, and 
impact.
    Today, I would like to briefly walk through the major 
crises we face in 2017, the challenges we confront, and how 
USAID is responding.
    In January, the Famine Early Warning System, FEWS NET, 
warned of possible famines in a record four countries this 
year. The first was declared just 1 month later in South Sudan.
    More than 3 years of horrific violence in South Sudan has 
transformed the world's youngest nation into one of the most 
food insecure. Even before the famine declaration, many South 
Sudanese were dying of hunger and faced an impossible choice: 
Stay where they are and starve, or run for their lives, 
potentially into mortal danger.
    USAID continues to feed more than 1.3 million people each 
month, but enormous needs remain: 5.5 million people, nearly 
half of South Sudan's population, will face life-threatening 
hunger in July.
    In West Africa, the savagery of Boko Haram triggered a 
humanitarian crisis in Nigeria, displacing over 2 million 
people and leaving more than 10 million individuals in need of 
humanitarian assistance. More than 5.1 million people face 
severe food insecurity.
    It is likely famine incurred in some inaccessible areas in 
2016. As access improves, humanitarian agencies are 
encountering communities with dire levels of hunger and 
malnutrition, particularly among children. More than 450,000 
children are severely malnourished in Northern Nigeria.
    Nigeria is also a protection crisis. We hear reports of 
vulnerable women and girls forced to trade sex for food to keep 
their families alive, men and boys forcibly recruited into Boko 
Haram are killed, and children whose worlds have been shattered 
after months of captivity by Boko Haram. Meanwhile, the Horn of 
Africa is facing increasingly severe drought conditions that 
are quickly exceeding people's ability to cope.
    The scope is so great that relief agencies estimate that up 
to 15 million people in Somalia, Ethiopia, and Kenya are facing 
food and water shortages. More than half of Somalia's total 
population currently requires urgent humanitarian assistance.
    In Yemen, more than 17 million people, an astounding 60 
percent of the country's population, are food insecure, 
including 7 million who are unable to survive without food 
assistance. This makes Yemen the largest food security 
emergency in the world, and it is also at risk for famine in 
2017. In Yemen, more than 460,000 kids are severely 
malnourished.
    Beyond these four likely famines, we are confronted with 
protracted crises in countries like Iraq and Syria, which have 
no clear end in sight. These emergencies are complex, 
dangerous, and require the majority of our personnel and 
funding.
    In this time of unprecedented need, we are looking at all 
options available to us, finding ways to provide assistance 
efficiently and encouraging other donors to step up. USAID is 
also applying lessons from previous responses, making effective 
use of early warning and investing in resilience strategies to 
reduce the impacts of future shocks and stresses.
    We remain committed to providing humanitarian assistance 
around the world as both a moral imperative and a direct 
benefit to the well-being of the United States.
    I thank you for your time and support, and I look forward 
to your questions.
    [The prepared statement of Mr. Gottlieb follows:]

             The Prepared Statement of Gregory C. Gottlieb

    Chairman Corker, Ranking Member Cardin, members of the committee, 
thank you for your continued support and interest in humanitarian 
assistance around the world. Today, I want to highlight the 
unprecedented humanitarian needs globally and talk about how the U.S. 
government is working to save lives.
    In 2017, we are confronted with massive humanitarian crises around 
the world, which demand an immediate, substantial, and creative 
response. In just over a decade, the number of people in need of 
humanitarian aid has more than doubled. There are more than 65 million 
displaced people today--numbers we have not seen since World War II. We 
are also facing the most serious food security crisis in the modern 
era. Famine likely occurred in parts of Nigeria late last year and was 
declared in South Sudan this year; Somalia and Yemen are likely to be 
next.
    Much of the humanitarian need today is man-made--a result of civil 
war, instability, and unresolved political disputes within fragile 
states. In countries like Syria and Iraq, violence and insecurity are 
causing a record number of internal and cross-border displacements, and 
aid workers are saving lives at great risk to their own.
    Humanitarian funding requirements for 2017 are likewise higher, 
currently estimated at $22.6 billion, more than double the funding 
requirements from just five years ago.
    In countries experiencing conflict, humanitarian organizations 
cannot easily reach people in need because of ongoing violence, host 
countries' rules and regulations, unexploded ordnance, and limited 
communication and transportation infrastructure. These challenges are 
compounded by aid obstruction and attacks on relief convoys and aid 
workers. As a result, running an effective response has required ever-
increasing flexibility, innovation, and efficiency on the part of the 
international humanitarian community.
    Thanks to generous support from Congress, the United States has 
been the world leader in humanitarian response. The assistance we 
provide represents the best of America's values of goodwill toward 
those who suffer. Moreover, despite these challenges, USAID strives to 
make the best use of those resources, aiming to prevent, mitigate, and 
respond to humanitarian crises around the world. U.S. leadership in 
this area demonstrates extraordinary global reach and impact, helping 
to improve our national security by strengthening relationships with 
nations and people around the world, particularly in conflict-prone 
areas. Additionally, even as we respond to today's humanitarian crises, 
our strategy is also to prevent tomorrow's crises, by building up 
resilience and focusing on small interventions in fragile states before 
they become failed ones.
    We respond to disasters by providing food, safe drinking water, 
shelter, emergency medical care, and the tools to rebuild. USAID's 
Office of Foreign Disaster Assistance alone responds to an average of 
65 disasters in more than 50 countries every year. USAID serves as the 
United States' first responder to global crises and an iconic symbol of 
American compassion around the world. Recall the images in 2014, when 
USAID deployed a Disaster Assistance Response Team (DART) to West 
Africa to lead the U.S. response to the worst Ebola outbreak in 
history. Along with the U.S. military and the U.S. Centers for Disease 
Control and Prevention, the United States helped to bring an end to the 
epidemic. When Hurricane Matthew hit Haiti this past fall, USAID pre-
deployed a DART prior to landfall to immediately provide food, water, 
and shelter, as well as scale up hygiene and sanitation interventions 
to mitigate the increased risks of cholera.
    The United States is the single largest donor of humanitarian aid 
to the Syrian and South Sudanese people, and is feeding more than 1.3 
million people in South Sudan each month. The U.S. government is also 
the largest single provider of humanitarian assistance to Nigeria and 
the Lake Chad Basin, where Boko Haram has driven more than a million 
people from their homes, creating one of the largest displacement 
crises in Africa. In Yemen and the Horn of Africa, USAID continues to 
mobilize robust responses to help families on the brink of starvation. 
Our assistance is saving lives and protecting important development 
gains.
    Over the last 10 years, USAID has deployed 33 DARTs, including a 
record six DARTs deployed simultaneously in 2016. We currently have 
four DARTs deployed to meet urgent humanitarian needs in Iraq, South 
Sudan, Syria, and Nigeria. The extraordinary has sadly become the 
everyday.
    Today, I'd like to briefly walk through the major crises we're 
seeing in 2017, describe the challenges we face, and talk about how 
USAID is responding.
                              south sudan
    In Africa, despite seeing many development and global health gains 
from our investment in development, several countries remain of great 
concern. More than three years of horrific violence in South Sudan has 
transformed the world's youngest nation into one of the most food-
insecure countries in the world. Despite our efforts throughout the 
conflict to stave off famine, in collaboration with the World Food 
Programme (WFP), UNICEF and others, conditions have continued to 
deteriorate and famine was declared in two counties on February 20. The 
United States is gravely concerned by the declaration of famine in 
parts of South Sudan and by the significant scale of humanitarian need 
throughout the country. An estimated 5.5 million people--nearly half of 
South Sudan's population--will face life-threatening hunger by July.
    Even before the famine declaration, people were dying of hunger--
driven from their homes by violence, and many forced to eat water 
lilies and wild grasses to survive. Innocent civilians are targeted by 
violence from armed actors on all sides of the conflict and have little 
to no access to basic services. The fighting has disrupted markets and 
harvests, and the South Sudanese people--having exhausted all their 
resources--are left with little or nothing to survive. Many South 
Sudanese face a choice no one should have to face--stay where they are 
and starve, or run for their lives, potentially into mortal danger, so 
that they can find food.
    As we have said repeatedly, this is a man-made crisis and the 
direct consequence of prolonged conflict. We hold all the warring 
parties--including the government, the opposition, and affiliated armed 
groups--responsible for the hostilities that upend and, even worse, 
target civilian lives and livelihoods. More than 3.5 million South 
Sudanese have been displaced from their homes, and the exodus of 1.6 
million South Sudanese into neighboring countries--including into 
conflict areas of Sudan--shows the desperation they face as the 
geographic scale of the conflict spreads. Schools have emptied out 
leaving 1.8 million children out of school and 17,000 recruited into 
armies. In the month of January alone, more than 90,000 South Sudanese 
fled their country, many to neighboring Uganda. The Bidi Bidi refugee 
settlement, which did not even exist seven months ago, has rapidly 
swelled to become one of the largest refugee camps in the world, home 
to more than 750,000 South Sudanese refugees.
    USAID did not wait for a famine declaration to intervene in South 
Sudan, and we will continue to respond to save as many lives as 
possible.
    The United States has provided more than $2.1 billion since 2013 to 
help the South Sudanese people. We deployed a DART in December 2013 to 
lead the U.S. humanitarian response to the crisis, which remained in 
place through the July 2016 violence. Throughout the crisis, and 
ramping up over the past six months, the U.S. has responded with 
comprehensive humanitarian assistance, including food, safe drinking 
water, emergency medical care, critical nutrition, as well as emergency 
shelter and relief supplies. So far in Fiscal Year (FY) 2017, we have 
provided nearly 100,000 metric tons of food assistance, at times using 
mobile teams to reach populations in famine, who are also under threat 
of violence.
    Our health and sanitation interventions are critical because we 
know that people don't only die in large numbers from hunger, but from 
the diseases to which they succumb when hunger weakens their immune 
systems, leaving them susceptible to deadly but largely preventable 
diseases. Our assistance is also helping to provide psychosocial 
support to survivors of gender-based violence, give children a safe 
place to learn as an alternative to fighting, and reunify families 
separated by fighting.
    However, significant challenges remain. Our partners continue to 
face security and access challenges that make our life-saving 
operations more dangerous and complex. Bureaucratic impediments, 
numerous checkpoints, weather-related obstacles, and limited 
communication and transportation infrastructure have restricted 
humanitarian activities across South Sudan. Additionally, aid workers 
have been harassed, attacked, or killed, and relief supplies are 
looted. According to the U.N., at least 72 aid workers have died in 
South Sudan since 2013. We call on all parties to allow safe, rapid, 
and unhindered access to people and places most in need. All parties to 
this conflict must stop impeding humanitarian response efforts and 
allow relief workers to save lives.
                                nigeria
    The savagery of Boko Haram has triggered a humanitarian crisis in 
Nigeria and surrounding countries in the Lake Chad Basin region, 
displacing over 2 million people and leaving more than 10 million 
individuals in need of humanitarian assistance.
    Food assistance and nutrition continue to be the most critical 
needs in northeast Nigeria. More than 5.1 million people face severe 
food insecurity in northeastern Nigeria, particularly those displaced 
in Borno State, where famine already likely occurred in 2016. Though 
insecurity limits access and information gathering, there are signs 
that a famine may be ongoing in parts of the state that humanitarian 
actors are unable to reach. As access improves, humanitarian agencies 
are encountering communities with dire levels of hunger and 
malnutrition, particularly among children.
    This crisis involves numerous other tragedies and protection 
issues. We hear reports of families without shelter and on the brink of 
starvation, vulnerable women and girls forced to trade sex for food to 
keep their families alive, men and boys forcibly recruited into Boko 
Haram or killed, and children whose worlds have been shattered after 
months of captivity by Boko Haram. We have had reports of girls as 
young as eight years old being used as suicide bombers. Yet, the severe 
and heartbreaking needs of these vulnerable communities far exceed the 
resources available to help them.
    Since late 2016, the U.N. and NGOs have scaled up emergency 
operations. Agencies, such as WFP and UNICEF, have begun using rapid 
response mechanisms to conduct faster needs assessments and deliver 
supplies. In January, WFP reached more than 1 million people in 
northeast Nigeria with in-kind food assistance or cash-based 
transfers--quadrupling their September 2016 caseload. Relief 
organizations have also expanded nutrition programs, including 
activities that train community volunteers to help screen and refer 
malnourished children to health centers.
    Despite clear progress, the global emergency response is still not 
meeting all of the widespread needs due to the scale of the crisis and 
the persistent insecurity that thwarts humanitarian operations. Faced 
with threats of ambushes, suicide attacks, gender-based violence and 
improvised explosive devices, our partners are bravely putting 
themselves in danger to deliver aid to those who need it most. They 
must be allowed to continue their important work without fear of 
violence. As we scale up our humanitarian response to this crisis, we 
must work with the Government of Nigeria and the governments around the 
Lake Chad Basin to do more to open up access to the communities that 
have been most impacted by the fight against Boko Haram.
          horn of africa drought and potential somalia famine
    The Horn of Africa is facing increasingly severe drought conditions 
that are quickly exceeding many people's ability to cope. The scope of 
these conditions are so great that relief agencies estimate that up to 
15 million people in Somalia, Ethiopia, and Kenya are facing food and 
water shortages.
    The U.S. government is most concerned about Somalia, where decades 
of conflict have compounded the effects of drought. Six years ago, 
nearly 260,000 Somalis died in a famine triggered by the Horn of 
Africa's worst drought in 60 years--half of them children under five.
    Today, experts are warning that famine is again possible in the 
coming months if drought conditions persist, purchasing power continues 
to decline, and insecurity prevents relief actors from reaching 
populations in need. An estimated 6.2 million people--more than half of 
Somalia's total population--currently require urgent humanitarian 
assistance.
    Against this backdrop, it is important to recognize there are 
important differences between the region's 2011 food security crisis 
and now. Today, host governments--primarily Ethiopia and Kenya--are 
actively coordinating their national response efforts, with 
international support now required primarily to finance the scale of 
the government-led responses. Families are now more resilient and 
better able to cope with the effects of the drought. Humanitarian 
actors have greater access to vulnerable communities.
    This is thanks in part to the long-term investment the U.S. 
government has made in East Africa to help households, communities, and 
countries become more resilient to droughts and extreme weather shocks 
through programs that expand economic opportunities, strengthen natural 
resource and drought cycle management, and improve health and human 
capital. A 2012 study by the UK's Department for International 
Development (DFID) in Kenya and Ethiopia estimated that, over a 10-year 
period with two large droughts, every $1 invested in resilience would 
result in $2.90 in economic benefits consisting of reduced humanitarian 
spending, avoided asset losses, and increased development benefits.
    Nonetheless, multiple consecutive years of severe drought have 
overwhelmed many communities' local response capacity and ability to 
cope. Most significantly in Somalia, preventing famine now requires an 
immediate, rapid scale-up of international assistance.
    Our investments are aligned with country-led efforts such as the 
Government of Kenya's Ending Drought Emergencies initiative and 
Ethiopia's Productive Safety Net Programme. We are already seeing 
dividends, including in the way these governments are proactively 
responding to and managing the current drought.
    We are also ramping up support to host governments' drought-relief 
efforts by utilizing existing development resources to complement 
emergency assistance. In addition to providing immediate food 
assistance, malnutrition treatments, and water, sanitation, and hygiene 
support, we have modified long-term development activities and injected 
additional resources to further mitigate the drought's impacts.
    I plan on traveling to the region, including Somalia, in the coming 
weeks to better understand the situation so that we are in a stronger 
position to respond should the crisis worsen.
                                 yemen
    Further, the U.S. is gravely concerned about the risk of famine in 
Yemen, where the scale of food insecurity is staggering. More than 
seventeen million people--an astounding 60 percent of the country's 
population--are food insecure, including seven million people who are 
unable to survive without food assistance. This makes Yemen the largest 
food security emergency in the world.
    The primary driver of this food crisis is the ongoing conflict that 
broke out in March 2015. Commercial trade has also been hampered by the 
fighting, which is particularly devastating in a country that imports 
90 percent of its food and most of its fuel and medicine. The food that 
does make it to markets continues to be increasingly expensive, with 
some foods doubling in price, as supplies dwindle. For one of the 
poorest countries, these price increases dramatically affect people's 
ability to buy food and are further exacerbating the food security 
situation.
    Two years of conflict has disrupted more than Yemen's food supply. 
Two million people have been forced to flee from their homes and nearly 
70 percent of the country is in need of humanitarian assistance. The 
ongoing fighting makes it that much harder for Yemenis to find good 
health care, safe drinking water, and adequate nutrition. To reach 
people in need, our humanitarian partners are navigating active 
conflict, checkpoints and other access constraints, bureaucratic 
impediments, and heavily damaged infrastructure. Together, this 
increases the risk for malnutrition--particularly for children. 
Currently, the U.N. estimates that more than 460,000 children are 
severely malnourished.
    Despite these obstacles, USAID and our partners are able to reach 
millions of people with life-saving aid, and USAID continues to mount a 
robust humanitarian response. Last month, USAID partner WFP reached 
nearly five million people with emergency food assistance. Our programs 
provide food vouchers and nutrition services. Mobile health clinics 
bring much-needed emergency medical services in a time when nearly 15 
million people lack access to basic health care. We are also providing 
hygiene kits safe drinking water, and improved access to sanitation 
services to fight malnutrition and stave off disease. For children 
especially, the toll of conflict can have lasting effects. Our mobile 
protection teams provide treatment to children throughout the country.
    There is no doubt that our humanitarian programs are saving lives. 
According to the Famine Early Warning Systems Network, without the 
large-scale, international humanitarian assistance currently being 
provided to partners in country, the food security situation would be 
significantly worse across Yemen.
                                 syria
    Now entering its seventh year, the Syrian conflict is the largest 
and most complex humanitarian emergency of our time, driving record 
levels of displaced persons. One in five people displaced globally is 
Syrian. The emergence of the Islamic State in Iraq and al-Sham (ISIS) 
exacerbated an already protracted crisis in Syria, where the Assad 
regime has waged an unrelenting campaign of bloodshed against its own 
people for over six years.
    Inside Syria alone, more than 80 percent of the population--or 13.5 
million people--need humanitarian assistance. According to the U.N., 
roughly seven million people are unable to meet basic food needs, and 
one in three children are out of school, risking a lost generation of 
talent, innovation, and entrepreneurship.
    The United States has been working to help Syrians and the 
communities that host them since the crisis began. There are 
approximately 4.8 million Syrian refugees in neighboring countries, 
placing incredible strain on our Arab, Turkish, and European allies and 
partners. The United States has provided nearly $6 billion to date, in 
addition to development funding for Syria's neighbors.
    At great personal risk, our heroic partners are doing everything 
possible to meet the immediate needs of Syrians across borders and 
conflict lines--reaching millions of people across all 14 governorates 
of Syria.
    USAID is working through its partners to provide monthly food 
assistance to approximately five million Syrians, including four 
million beneficiaries inside Syria and one million refugees in Egypt, 
Iraq, Jordan, Lebanon, and Turkey.
    In times of crisis, shelter and safe drinking water are critical to 
survival. In fiscal year 2016, USAID improved water and sanitation for 
more than two million people across Syria. During the winter months, we 
provided blankets, plastic sheeting, and other supplies to help 
families brave the cold. In the midst of daily barrel bombs, more than 
five million patients were treated at nearly 400 U.S.-supported medical 
facilities across Syria over the past two years. We're also supporting 
protection programs to help prevent gender-based violence, reunify 
families, and provide psychosocial support to children who have 
witnessed the horrors of war.
    Our partners continue to face significant security and access 
challenges that make our life-saving operations more dangerous and 
complex. One of our longest-standing partners in Syria, the White 
Helmets, has lost more than 140 of its volunteers since they began 
emergency search and rescue operations across the country. Syria also 
remains one of the most dangerous environments for aid workers to do 
their jobs. Despite these challenges, we continue to do everything 
possible to help Syria's most vulnerable people.
                                  iraq
    Bordering Syria, the humanitarian crisis in Iraq is one of the 
largest and most volatile in the world, Iraq continues to face 
challenges in its fight against ISIS, most recently with the ongoing 
Iraqi-led campaign to retake the city of Mosul. As of March 19, more 
than 283,000 people had fled the city and surrounding areas, and aid 
groups are anticipating even more displacement as the front lines shift 
toward more densely populated residential areas.
    Iraq is one of the fastest growing displacement crises in the 
world, with more than three million people forced from their homes and 
11 million in need of assistance--almost one-third of the country's 
population. WFP estimates that at least 2.4 million people in Iraq 
require food assistance. Civilians are getting caught in the crossfire, 
and trauma casualty rates are high, especially in Mosul, where more 
than 750 people have been treated for conflict-related injuries within 
a two week period.
    Working alongside the Government of Iraq, USAID has provided more 
than three million internally displaced Iraqis with critical relief 
commodities, safe drinking water, improved hygiene, sanitation 
interventions, and emergency shelter materials. Our partner WFP reaches 
1.4 million Iraqis with food assistance every month. To help people 
caught in the violence, USAID is supporting 17 mobile medical clinics, 
as well as the first fully equipped surgical trauma hospital near the 
Mosul frontlines. We're also supporting psychosocial programs to help 
survivors of gender-based violence and families fleeing the brutality 
of ISIS.
    In addition to responding to urgent humanitarian needs, USAID's 
disaster experts have been preparing for future disasters by closely 
monitoring the Mosul Dam, which faces a serious and unprecedented risk 
of failure with very little warning, putting millions of Iraqi lives at 
risk. Since November 2015, USAID has been working with the Iraqi 
government on the development and installation of an early warning and 
national notification system to help at-risk communities get out of 
harm's way. We've also supported trainings and public awareness 
campaigns to raise awareness of the risks of a dam breach.
                crosscutting & institutional challenges
    Throughout the hotspots highlighted, several concerning themes 
emerge. Protracted, complex crises are taking up increasing amounts of 
resources, causing unprecedented population movements, and presenting 
unique challenges, including to U.S. national security.
    To address these challenges, we are adapting to increasingly 
complex environments, and finding ways to provide assistance ever more 
efficiently and safely, in order to save more lives. USAID is 
continually seeking ways to make our dollars stretch further, to reach 
the most people with the assistance they urgently need. This includes 
everything from providing newly displaced families in Syria with 
smaller, more portable food packages to using geolocation technology to 
track assistance all the way to the beneficiary; from introducing 
retinal scans to verify the right assistance is going to the right 
person, to making sure our internal operations--including staffing, 
oversight and implementation--are the best they can be.
    We have also worked with our international partners to identify 
strategic opportunities to make global humanitarian assistance more 
effective and efficient, including prioritizing needs and reducing 
duplication and costs. This will make every dollar the U.S. provides 
work even harder and help more people.
    USAID also seeks to prevent and mitigate the impact of conflict and 
political instability in the recognition that prevention is equally 
important in addressing the causes of humanitarian crisis and more 
cost-effective in the long run. These efforts include continuing to 
improve coordination within the U.S. government, for example, to 
implement development programs that work with host governments and 
local communities, in partnership with other donors and the private 
sector, to build resilience, to support reconciliation, to strengthen 
responsive governance, and to support peaceful, democratic transitions 
of power.
    What we cannot do is provide a humanitarian solution to a political 
problem, and we must work in concert with our colleagues at the 
Department of State, our partners around the world, and the 
international community to continue to press for cessations of 
hostilities and enduring political solutions that bring conflicts to an 
end. Only then can we move away from the dire human cost of these 
conflicts and towards prosperity and stability.
    Some donors have begun increasing their contributions to address 
the growing humanitarian needs, but much more can and must be brought 
to bear. I recently traveled to donor conferences in Oslo and London, 
where the United States again urged other countries to step up. 
Further, our commitments to humanitarian efforts also enable us to push 
for greater transparency and improved efficiencies in the international 
system, including in the U.N. Agencies. Having a seat at the table lets 
us influence the direction of a response, and hold others accountable 
for the efficient use of resources.
    USAID estimates that in FY 17 over half of our humanitarian funding 
will be allocated towards the six major emergencies alone. And as the 
U.S. government's lead in international disaster response, we must also 
expect the unexpected, whether from rapid onset natural disasters, 
disease outbreaks or greater suffering from expanding wars.
    We remain committed to providing humanitarian assistance around the 
world as both a moral imperative and as a direct benefit to the well-
being of the United States. As provided in the President's Budget 
Blueprint, the FY 18 Budget will allow for significant funding of 
humanitarian assistance. We do expect that we would focus resources on 
the highest priority areas and continue our efforts to make 
humanitarian assistance more efficient and effective, while also asking 
the rest of the world to do more.
    I thank you for your time, and look forward to answering your 
questions.

    The Chairman. Thank you very much.
    We have a constant tension, if you will, between the short-
term emergencies that are so important and affecting so many 
people and longer term issues. How do USAID and other donor 
nations manage the evolution between short-term emergency 
interventions with long-term development needs for communities 
displaced for years, like we are seeing right now?
    Mr. Gottlieb. As you pointed out, Senator, we never fully 
reach the maximum support for all appeals, and that has meant 
that we have always made tradeoffs in how we approach different 
emergencies.
    I do think, over time, what we have managed to do is draw a 
much tighter linkage between our emergency programs and our 
development programs, and there is no better place to look 
right now, I think, than in Kenya and Ethiopia. Both countries 
recognized about 5 years ago that they needed to do something 
about drought. And so during that particular drought in 2011-
2012, we began to work together to draw those programs together 
to make sure that our development programs were located where 
we were spending the bulk of our humanitarian assistance.
    We have spent billions of dollars in those countries to 
address drought. Now we have moved much of our development 
program into that area to support those communities so that 
they are better equipped to deal with the droughts that will 
come. The droughts will come, but we hope not the emergency 
side of things.
    And I will say, in support of those countries, the Kenyans 
themselves have put up almost $1.6 billion of their own funding 
toward this. So I think we are beginning to get a grip in those 
countries of repeated droughts.
    In conflict areas, of course, it is much more difficult 
because while we had a development program in Yemen for many 
years, we no longer have that program there because of the 
conflict and the inability to really stay for the long-term in 
communities.
    So I think these crises, as they abate, it will be very 
important for us to bring the kinds of development programs 
that target those communities and understand the problems so 
that, should we have another crisis, whether it is drought or 
conflict, those communities are better able to cope.
    The Chairman. And I guess the governance issues are keeping 
us in these other conflict areas from being able to do what you 
just said, correct?
    Mr. Gottlieb. Yes.
    The Chairman. Let me digress for a moment. You know, look, 
this appeal that is going out and the lack of response is 
disturbing. At the end of the day, the United States will 
provide one-third of the food assistance around the world.
    I mean, I am proud of us for doing that, and I know we will 
continue to do that. At the same time, it is still not meeting 
all of the needs. And we look at countries like China and 
others who are just doing a pittance--a pittance--as it relates 
to these kinds of issues.
    We have had discussions like this around NATO. All of us 
strongly support NATO, and at the same time, we want our 
partners to step up.
    We strongly support helping people with famine and disaster 
like this. Our heart goes out to these people, knowing they 
could be our neighbors, and yet they are perishing by the 
thousands, in some cases daily.
    What is it we can do to build support from other countries, 
other well-developed countries, to support this type of effort 
when it is needed?
    Mr. Gottlieb. One of the things that we have done over the 
years is we have supported the number of donor groups to draw 
in other countries to the work. Right now, actually, I am the 
chair of the OCHA donor support group, the Coordinating Office 
for Humanitarian Assistance in the U.N.
    And one of the things that we have done over the last 
several years is we have reached out to numerous donors, 
whether it is the South Koreans, whether it is the Turks, the 
UAE, Qatar. And those groups, when we first started the group 
some years ago, were not participants. They are participants 
now.
    We endeavor to bring more countries in. I will leave next 
week and go talk to the Saudis about additional assistance that 
they can bring.
    We have had assistance from many countries around the 
world, but what we are trying to do is to bring that into a 
system that is more systematic, that is more coordinated.
    And also, you are right that we believe that there are 
other donors out there that can do much more to support the 
systems that we support.
    The Chairman. And just briefly, one of the pet issues for 
me is we have each year, it is unfortunate, but the ag 
community continues to handle the food program in the manner 
they do. We know there is no way, for instance, to get U.S. 
agricultural products into places like Syria. It is impossible.
    And yet, the ag community, and I have talked to many of the 
ag constituents, they do not even know this is taking place and 
do not care. It does not help them in any way. It is a small 
pittance of what they sell each year.
    But the ag community, for some reason, wants to hold onto 
this commodities program as it is, and that means that, between 
them and the maritime industry, which is a small group of folks 
with vessels that are of no use whatsoever to our country, of 
no use--they are extorting us. They are extorting us.
    So we have the ag community, which is not even aware that 
these things are existing. It is actually just taking place 
here in Washington. People who are the ag community itself do 
not care about this. As a matter of fact, I think they are 
embarrassed by this.
    Then we have the maritime industry that is extorting us 
over shipping these goods in the way they are. We could feed 4 
million to 6 million more people each year if that were not the 
case. Is that correct?
    Mr. Gottlieb. You are correct in this. We appreciate the 
flexibility that has been given to us by this committee and 
Appropriations. We are now able to do, you know yourself, we 
are able to do a combination of food commodities and cash.
    There are times when we need commodities because we cannot 
even access them out there. And, as you know, we still ship 
American commodities. We just did it for Somalia, two large 
tranches recently, 37,000 tons. And because of our good use of 
early warning, we are able to plan ahead and move those 
commodities.
    At the same time, our use of cash, vouchers, other things, 
has increased greatly with your support, and it has enabled us 
to do a lot more. And we think that we could feed another, with 
additional flexibility, we could feed another 5 million people 
with the budget we have.
    The Chairman. Before I turn to the ranking member, we did 
some great things last year, thanks to this entire committee, 
on a bipartisan basis. But to know that legislation, which does 
not cost the American people one penny, could be passed to feed 
5 million more people a day, and we are sitting here with 70 
million people starving today, to me, is unbelievable.
    And I just hope that, somehow, we will overcome the special 
interests here in our country that really are not even 
representing the entire industries that they supposedly 
represent. I hope somehow or another we will overcome that so 
that we ourselves can pass simple legislation to allow 5 
million more people each year to have food with the same amount 
of money.
    But anyway, thank you, and I will turn to the ranking 
member.
    Senator Cardin. Thank you, Mr. Chairman.
    As has been pointed out, this is a manmade problem, so we 
need to work on a dual track. We need to work on the root 
causes, and that, to me, is a critically important part of the 
State Department's function. It is not the subject of today's 
hearing, but it is very much involved. If we want to save the 
needs for humanitarian assistance, let's deal with the root 
causes. And we should be putting more resources into 
governance.
    And I just do not know how, if the President's budget were 
to become real, how America would be responding to that need.
    The other area is how you deal with the humanitarian 
crisis. And here, U.S. leadership is critically important.
    So, Mr. Gottlieb, let me ask you first, the United Kingdom 
is hosting the ministerial meeting in May for Somalia, to deal 
with the crisis. Now, ministerial meetings are normally 
attended by the Foreign Minister or Secretary of State.
    Can you tell us what role the United States will play in 
the UK ministerial meeting and what commitments we are prepared 
to make in regards to Somalia?
    Mr. Gottlieb. Senator, it is hard for me to speak for where 
the State Department or where the Secretary might be for that 
particular meeting. But what I can tell you is, and I think 
perhaps what the committee is concerned about is, how we are 
responding to what is happening in Somalia.
    Senator Cardin. No, I am interested in what is happening 
this May in the UK and where the United States is going to be 
at that meeting in the UK.
    Mr. Gottlieb. Right. And what I can tell you before I talk 
a little bit about that is that, just recently, we held another 
meeting in the UK, and this was on the operational side for 
people like me and others at my level who looked at the 
practical side of how we can move our money to Somalia.
    So what happened in that meeting was donors sat around the 
table and said what they were going to commit up to now. What I 
heard at that meeting was donors committing around $500 
million. We ourselves, through the end of April, we will have 
moved $225 million of our own funding to Somalia for just 2017.
    Senator Cardin. Do you believe the UK meeting is important 
or not?
    Mr. Gottlieb. I think it is important.
    Senator Cardin. Are we going to be represented?
    Mr. Gottlieb. Yes, we will be, I am sure.
    Senator Cardin. Will the Secretary be there or you do not 
know that?
    Mr. Gottlieb. I cannot speak to who will represent us.
    Senator Cardin. Do you know what the goal is of this 
meeting? It is coming up.
    Mr. Gottlieb. The goal will be, I think, to draw more 
donors into responding to the situation in Somalia.
    Senator Cardin. Will the U.S. be prepared to be part of 
that increased commitment to Somalia?
    Mr. Gottlieb. Certainly, that will be a discussion that we 
will have up until then. As I said, what we have budgeted so 
far for this year, we will have moved by the end of April.
    Senator Cardin. I know you are in a tough position on 
answering these questions, and I appreciate that, but we have 
responsibility in Congress. And we appreciate the UK's 
leadership in calling this ministerial meeting for Somalia, 
which normally means that we would have the foreign ministers 
present, and from what we understand, our foreign minister will 
not be present.
    Mr. Gottlieb. I cannot speak to that, Senator. I do not 
know if he will or will not.
    Senator Cardin. Okay. Let me get to the budget for one 
moment, as to whether you have adequate resources to deal with 
the need.
    I do not know whether the President's budget--and I 
appreciate what Chairman Corker is saying. I do not believe we 
will pass the President's budget. I think Democrats and 
Republicans will reject the deep cuts that have been suggested 
in the State Department, because we recognize the importance of 
our programs.
    But I am trying to get how you are going to operate. And 
Senator Corker is correct. Last year, with Senator Corker's 
leadership and Senator Casey's leadership, and others, we were 
able to pass the Global Food Security Act, which deals with the 
Feed the Future initiative.
    But the President's budget cuts the funding in that 
program, I do not know the exact number, but I am told it could 
be as high as 36 percent, maybe 28 percent. We know it is a 
cut.
    And I just want to know, do you have too much resources 
there for Feed the Future that you think it is right for us to 
reduce our share in the Feed the Future program?
    Mr. Gottlieb. I am not currently overseeing Feed the 
Future. I was there at the beginning of it. I can say we really 
appreciate that the Global Food Security Act was passed.
    I do not know where that budget is going to end up. I mean, 
what I can say----
    Senator Cardin. Do we have too much money in that program? 
What is your observation?
    Mr. Gottlieb. There was a very substantial sum that was 
given to Feed the Future in the beginning. Like with many 
programs, we will look at whatever that budget is and we would 
adjust to whatever that budget is.
    Senator Cardin. You are here before this committee. I am 
asking your view on this.
    We know also that the administration wants to prioritize 
for counterterrorism. We know that many, many, many of the 
countries receiving Feed the Future funds would not fall into 
that category. So their cut could be even deeper than 36 
percent.
    I am trying to get your assessment as to whether the U.S. 
role here in Feed the Future, which has bipartisan support, 
whether the funds need to be increased or not.
    Mr. Gottlieb. Senator, it is hard for me to assess from my 
perch, where I am, as to what Feed the Future or what the 
Bureau for Food Security needs in its budget. It is hard for me 
to say what they need or how they can adjust their budgets.
    I talk to my colleagues, certainly----
    Senator Cardin. So you do not think that is an important 
part of Democracy, Conflict, and Humanitarian Assistance?
    Mr. Gottlieb. I do think the programs are vitally 
important. I was there to help set them up. And I do not know. 
I am not there now, so it is hard for me to say how they have 
adjusted the programs.
    I am not saying they are not important. I am just saying it 
is hard for me to answer.
    Senator Cardin. You are losing at least my--I just have to 
say, the chairman is usually very direct. I am going to be 
direct.
    You play a very important role, and I expect, when you 
testify before our committee, you will give us your views. And 
I find it somewhat shocking that you cannot answer a simple 
question about whether the United States' Feed the Future 
program is important. And your role and the resources we are 
making available, the number of countries, the type of cuts 
that are being suggested, what impact that would have your 
role. I find that very disappointing.
    Thank you, Mr. Chairman.
    The Chairman. Okay, if I could, I would say that, because 
of concerns that we all have about the budget and our strong 
support for things like Feed the Future and PEPFAR and global 
efforts like that, we have arranged next week at 11:30, all of 
us, to have the opportunity--I hope everyone will come--to meet 
with Tillerson.
    It is next Thursday, right?
    Senator Cardin. It is tomorrow.
    The Chairman. Okay, tomorrow.
    So to Mr. Gottlieb, I am sure that Senator Cardin and 
others will have the opportunity to ask these questions very 
directly tomorrow. I have let Secretary Tillerson know there is 
a lot of concern about the budget issues. I know he wants to 
talk a little bit about his trip to Asia but also concerns 
about Russia and that he should be prepared to answer those 
questions.
    But just for what it is worth to committee members, because 
of the known concerns about the President's budget, I asked 
that this meeting be set up and to give us all an opportunity 
to see where the Secretary of State actually is on these 
issues. And I think it will give us a good sense of where we go 
from there.
    So I just want to make people aware that have not seen 
their emails that that is occurring tomorrow. We are going to 
have an opportunity to be very direct and ask questions that we 
care about.
    Senator Cardin. And I appreciate that. And, obviously, the 
Secretary of State is the critically important person in 
regards to the State Department, and I am looking forward to 
that.
    I would just hope that when we have witnesses that come 
before our committee, that they are prepared to testify as to 
their views and are not as restricted as I just heard this 
reply.
    The Chairman. And if I could, I know we all know this. Feed 
the Future is more of an economic development program than it 
is an issue relative to the thing today, but still important, 
and I appreciate your emphasizing that issue.
    Todd Young?
    Senator Young. Thank you, Chairman, Ranking Member.
    I want to thank you for your service, Mr. Gottlieb. I 
believe in the mission of USAID, and I want to continue to be a 
fulsome supporter of that mission. But for me to advocate on 
behalf of USAID, I need to ensure that you are the best 
possible steward of resources so that I can explain that 
support to my constituents.
    The general accountability office lists 53 recommendations 
and 12 priority recommendations that have not yet been 
implemented or fully implemented by USAID, and some of these 
open recommendations go back to the year 2013.
    Mr. Gottlieb, do you agree that it is important that this 
committee have full visibility on the status of these open 
recommendations? Yes or no, hopefully.
    Mr. Gottlieb. Yes.
    Senator Young. Okay. Well, I agree. That is why I, along 
with Senators Menendez, Coons, Rubio, introduced legislation, 
S. 418, the Department of State and United States Agency for 
International Development Accountability Act of 2017.
    Do you commit to providing to my office and this committee 
without delay a detailed, written, unclassified update 
regarding the status of all open USAID recommendations from 
GAO?
    Mr. Gottlieb. Yes.
    Senator Young. Okay, thank you. And for any recommendation 
USAID has decided to adopt, please provide a timeline. Is that 
okay?
    Mr. Gottlieb. Yes.
    Senator Young. Okay. And for any recommendation USAID 
decides not to adopt, could you provide a full justification 
for that in great detail?
    Mr. Gottlieb. We will.
    Senator Young. All right. Thank you.
    I would like to turn to the issue of resilience. I gather 
it has already been invoked some here today.
    In her prepared statement, Ms. Lindborg, who we will hear 
from on the next panel, cited Amartya Sen's book, Development 
as Freedom, and the assertion that no famine has ever taken 
place in the history of the world in a functioning democracy 
because democratic governments ``have to win elections and face 
public criticism, and have strong incentive to undertake 
measures to avert famines and other catastrophes.''
    We have discussed, again, the principle of resilience.
    Mr. Gottlieb, if Sen's assertion is correct, is not the 
ultimate resilience measure a functioning democracy?
    Mr. Gottlieb. Certainly, Sen's book is a remarkable book, 
and he has done a fantastic job of pointing out the importance 
of having stable government. I think the programs--the crises 
we look at now are mostly manmade.
    We do have, I think, when we look at Ethiopia and Kenya, we 
still have crises. We do not have famine yet, which is good 
because there is more stability there. So it sort of gives 
proof, I think, to some of Sen's work, that, with stability, 
you can avoid famine.
    I think for us, right now, we would wish that there would 
be better governance in the places in which we are working. But 
unfortunately, we do not have that.
    Senator Young. Well, as one of your core tasks, USAID lists 
promoting democracy, and you cited a couple examples around the 
world where, to varying degrees, we have seen some success.
    How do you measure success with respect to advancing that 
aim of promoting democracy?
    Mr. Gottlieb. Oftentimes, we would measure it through the 
transparency, transparency lens, how honest and forthright is 
government in indicating to its population what it does; 
transparency in the way it budgets; transparency in the way 
that its armed forces or police treat people; in the way that, 
like in our case, transparency in how they spend their money. 
And I think a lot of those things--and how they conduct their 
elections is another area of transparency.
    So when I look at our democracy programs, often, many of 
those programs are targeted exactly at those things.
    Senator Young. That makes some sense. Transparency leads to 
trust. Trust is an essential mortar of social and political 
capital that can lead to stable democratic governance.
    If you have any addendum to that answer, I would certainly 
welcome it.
    Lastly, in the little bit of remaining time here, I just 
want to note the importance of private sector development. 
Eight-four percent of all donors' total economic engagement 
with the developing world is through private financial flows.
    Now, it is essential that we maintain our international 
affairs budget, from this Senator's standpoint. But we need to 
understand and facilitate legitimate private sector 
development. This too is one of the core tasks of USAID, 
fostering private sector development.
    Perhaps you could very briefly speak to how you measure 
USAID's success in this area? And if there are particular 
statutory, regulatory, or other obstacles that exist to 
legitimate private sector development, I would certainly 
welcome those.
    Mr. Gottlieb. What I can say is I think one of the things 
we have done in USAID, particularly over the last several 
years, is to reach out strongly to the private sector.
    I will go back to, actually, Feed the Future, the Bureau 
for Food Security. One of the things that we did in that bureau 
was we set up a whole section just to deal with the private 
sector. We realized that to develop agriculture, we needed to 
link strongly with the private sector. So over the last several 
years, several very I think important partnerships have been 
developed to have private business come into agriculture.
    But there are also other things. Like, for instance, I 
spent the last couple years in Pakistan. We had a number of 
programs where we used OPIC and we used the private sector to 
foster energy programs. We do it all over Africa now.
    I think USAID as an agency is extremely aware of the 
importance of finding partnerships, because, as you point out, 
50 years ago, the amount of money that flowed from official 
sources was 80 percent. Now it is completely the opposite.
    Senator Young. Out of respect for the chairman, I am going 
to pass this back to him. If there are any barriers to 
advancing that core task, kindly submit those to me.
    Thank you.
    The Chairman. Thank you so much.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Gottlieb, thank you for being here this morning and for 
your many years of service to USAID. I have to say I share the 
concerns that are being raised about the budget outline that we 
have seen from the administration, what the impact on our aid 
programs would be, especially at a time when we know there is 
so much humanitarian need in the world, especially in the four 
countries we are talking about today.
    And I appreciate very much the chair's and ranking member's 
comments about the bipartisan support that has existed on this 
committee for humanitarian efforts, and that we expect that the 
budget, as it has been presented, is probably not the budget 
that will go through Congress. I share those sentiments.
    I do believe, as David Miliband said last week, that 
American leadership in the world on these efforts is absolutely 
critical, if we are going to get other countries to ante up 
what they need to do in order to contribute.
    I would also like to point out that one of the challenges 
that is contributing to what we are seeing in so much of sub-
Saharan Africa is climate change, that the droughts that are 
being affected are being affected because of our changing 
climate. And for us to ignore the scientific information that 
is available and suggest that we should not participate in 
addressing that with the rest of the world I think is just 
naive and very shortsighted.
    So let me ask you, because I appreciate that you do not 
want to respond on the budget issues, but let me ask about what 
is happening with women's health, because you referred to that, 
the challenges that women are facing in these humanitarian 
crises.
    And we know that pregnancy-related deaths and instances of 
sexual violence soar in times of upheaval, that in 2015, the 
U.N. estimated that 61 percent of maternal deaths took place in 
humanitarian crises and fragile settings were health services 
were not available to women.
    In South Sudan, for example, a woman's risk of dying from 
pregnancy-related causes is about one in eight compared to the 
United States where it is one in 3,500.
    So what is USAID doing to ensure that the needs of women in 
these crises are being met?
    Mr. Gottlieb. Thank you, Senator.
    Just 2 weeks ago, I was in Maiduguri, Northern Nigeria, and 
I visited a maternity ward in one of the camps in that city. I 
was incredibly impressed. I mean, it was a very simple 
facility, but I was incredibly impressed by the effort that the 
women made, the nurses and attendants.
    They recognize the challenges for those women. Many of 
those women probably have a better ward there in that camp than 
they would have out in their village.
    Nevertheless, in all, whether it is in Maiduguri or whether 
it is in South Sudan or wherever we are, women's health is one 
of the primary things we look at. We understand what is 
happening with women in these conflicts. The incidents of rape, 
I certainly got that in very graphic detail when I was in 
Maiduguri. And that has become an important element, not just 
what we do on the health side but what we do in trying to deal 
with the effects of that gender-based violence.
    You know, I have seen the clinics where women can get 
counseling, where there is special medical attention paid to 
the problems they have had, and we have seen those problems 
over the years. Many years ago, when I worked in eastern Congo, 
it was the same, issues of fistula and that kind of thing.
    So we have become, I think, acutely aware of it and made it 
a major part of what we fund in every humanitarian program.
    Senator Shaheen. So are we working with the U.N. Population 
Fund and the World Food Program and other U.N. Agencies and 
NGOs who are working to address these issues?
    Mr. Gottlieb. Yes. We work with UNFPA. We work with the 
World Food Program. We work with UNICEF, in particular, and a 
host of NGOs. You heard from David Miliband. In fact, the 
clinic in Maiduguri was by IRC. So a host of groups, yes.
    Senator Shaheen. Thank you. And can you talk about, if 
there are budget cuts, whether some of these programs that are 
particularly targeted to women and girls would be more 
adversely affected?
    Mr. Gottlieb. It is hard to say how they would be affected. 
For us, this is a core part of what we do. As I mentioned 
earlier, we have to look at priorities. And feeding people and 
bringing people health and water, sanitation, has been the core 
of our programs.
    So my own sense is that we would continue to prioritize the 
health of women and girls in conflict.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Merkley?
    Senator Merkley. Thank you, Mr. Chairman.
    And I appreciate your testimony. Can you elaborate a little 
bit on the Food for Peace program, whether that is in the 
target sites of the administration? And if so, what your 
concerns might be or how that might impact the ability to 
assist folks in distress around the world?
    Mr. Gottlieb. Thank you, Senator.
    What I have seen in what is termed the skinny budget, the 
language is that humanitarian assistance would be largely 
maintained. So from that language, I am hopeful that we will 
maintain the robust humanitarian assistance that the United 
States has provided over the last many years, and that will 
allow us to remain in a leadership position, so that gives me 
hope.
    Senator Merkley. Okay. And there have been various 
conversations about how to make that aid more effective, give 
it more flexibility, one of which has been a proposal some 
years back to spend up to a certain percent of the funds either 
locally or on food vouchers or on cash transfers that would not 
necessarily follow the well-established model of buying 
American food and shipping it overseas.
    Is this something that you would advocate for, more 
flexibility in this program?
    Mr. Gottlieb. We have appreciated the flexibility we have 
gotten in recent years to be able to use cash to reach people. 
It has allowed us to buy locally, and it has allowed us to 
develop, as you mentioned, these voucher programs where we can 
move money electronically to people. We can put it on a debit 
card. We can make it a lot easier for people to obtain food.
    And by buying locally, we are able to save considerable 
money. I will say this, that there are times when having the 
ability to buy food from the United States and ship it is 
advantageous because sometimes local prices are so high that we 
can do better by buying here and shipping it, actually.
    Senator Merkley. How much flexibility have you had in 
recent years? What percent of Food for Peace has been in the 
form of more flexible onsite vouchers, cash transfers, or 
purchases?
    Mr. Gottlieb. I think it is around 50/50 right now.
    Senator Merkley. Really?
    Mr. Gottlieb. Yes.
    Senator Merkley. Okay. That surprises me. I did not think 
it was that high.
    One of the other issues has been the issue of monetization, 
and there is a bit of a dilemma here. When food is distributed 
for free, it can undermine the success of local farmers whose 
prices then plummet. On the other hand, when it is sold, if it 
is sold, it can be inaccessible to the poorest who need the 
help the most.
    What are your insights on that challenge?
    Mr. Gottlieb. I think, first, when we ship food into a 
country, one of the analyses we have to do is, what is the 
economic impact of bringing that food in? And so I think we are 
very cautious about trying not to disrupt local markets. 
Usually, we are bringing food in because there are inadequate 
amounts of food on the market, so we feel like we are not 
impacting prices.
    In terms of the monetization, part of that is to sell the 
food into the market to raise funds so that the implementing 
partners can then do a project that may or may not be a food 
security project. It could be a health project. It could be any 
other kind of project.
    But usually, if we are going to do that, we also have to do 
the market analysis to make sure that we are not disrupting 
those local markets.
    Senator Merkley. And to make sure that food gets to those 
who may have no money to be able to purchase food.
    Some organizations have sworn off doing monetization. What 
is their thinking? And what is the opposing argument?
    Mr. Gottlieb. I think the opposing argument is that we can 
use monetization to raise funds to do other kinds of 
development programming that may complement, may help those who 
are food insecure.
    Senator Merkley. Under the existing program, is this 
completely at the discretion of the implementing organization?
    Mr. Gottlieb. Do you mean in terms of the project they do?
    Senator Merkley. Yes, in terms of monetization?
    Mr. Gottlieb. It would be a discussion with our missions in 
the field and with our folks back here at Food for Peace.
    Senator Merkley. Thank you.
    The Chairman. Thank you.
    I share Senator Shaheen's respect for your service, and I 
appreciate you coming up. I know you have received somewhat of 
a hard time for not answering questions. I will say that you 
might go back to the State Department--and we welcome 
nominations at any time and would be glad to process them and 
maybe you are up for one of these posts. That would be great.
    But we do thank you for filling in as acting person in this 
time of tremendous need around the world. I think it is hard 
for most Americans to get a grip on the fact that 70 million 
people today are starving. We have a great country, and we have 
been generous, and we help lead the world in those efforts, and 
I think you know that we want to continue to do so.
    I know the President's budget has been certainly discussed 
today. I will say that in the decade that I have been here, I 
have never seen a President's budget become law, and we all 
have a lot of work to do over the course of the next several 
months to make sure that we maintain our leadership.
    But at the same time, even with all that we do and the 
great citizens of our country do to help others, the need is 
still not being met. I hope, to a degree, this hearing will 
raise that issue, and I hope that other countries will join us.
    And, again, the conflicts, what is unusual about what is 
happening right now is the fact that it is being generated in 
these four areas because of conflict. That is a very unusual 
situation, a very unstable world, and brings even greater 
importance to the bipartisanship that we have on this committee 
in helping to resolve those.
    So thank you so much for coming, and we will move to the 
next panel.
    Mr. Gottlieb. Thank you.
    The Chairman. Our first witness today on the second panel 
is the Honorable Nancy Lindborg, who we all know well. She is 
president of the United States Institute of Peace. Ms. Lindborg 
previously managed the Bureau of Democracy, Conflict, and 
Humanitarian Assistance from 2010 through 2015. Prior to that, 
she was president of Mercy Corps for 14 years.
    We thank you and appreciate your very distinguished career. 
Thank you so much.
    Our second witness is Mr. Yves Daccord. Did I pronounce 
that right, sir?
    Mr. Daccord. Yes.
    The Chairman. Thank you so much.
    He is director general of the International Committee of 
the Red Cross.
    Thank you for what you and your organization do.
    Mr. Daccord is a former journalist who joined the ICRC in 
1992, working in such places as Sudan, Yemen, and Georgia, 
eventually moving up the ranks of leadership until finally 
becoming the director general in 2010.
    Thank you for your leadership, both of you, and for your 
testimony. I think you both know you can summarize in about 5 
minutes, and all of our panelists look forward to questioning. 
Thank you so much.
    Nancy, if you would begin?

STATEMENT OF THE HON. NANCY LINDBORG, PRESIDENT, UNITED STATES 
               INSTITUTE OF PEACE, WASHINGTON, DC

    Ms. Lindborg. Thank you, Chairman Corker, Ranking Member 
Cardin, and members of the committee. I really appreciate the 
opportunity to be here with you today. And your focus and 
attention to these issues is more important than ever.
    We have heard from your summations and Greg Gottlieb the 
depth of the issue. You have my full testimony, so let me use 
my time to summarize a few key points and recommendations. As 
we have covered, we have an urgent and very grave humanitarian 
threat with the potential of four concurrent famines and the 
prospect of 20 million people, disproportionately children, 
starving to death in the next 6 months. That is as if the 
entire State of Florida, all the people in Florida, were at 
risk of starvation. That is the urgent threat.
    These four crises also represent a political and a security 
threat. Each crisis has a regional cascading effect disrupting 
markets and economies of the countries around them. Millions of 
refugees are seeking safety and assistance across borders. They 
are straining infrastructures. They are disrupting markets and 
politically destabilizing the regions because of the numbers. 
And they join a historic number of 65 million refugees that are 
already straining the global humanitarian system and 
politically destabilizing our EU allies.
    And just to give you a sense of scale, the 1.4 million 
people who have been displaced just from Nigeria's Borno State 
are only about 40 percent of those that have reached Europe by 
boat in 2015.
    As we have discussed, famines are manmade. There are 
certainly natural disasters that intertwine with existing 
situations, but these are fundamentally manmade crises. And 
each of the four nations currently facing famine--Nigeria, 
Somalia, South Sudan, and Yemen--have distinct and complex 
issues, but they share important attributes.
    Each Nation is characterized by weak governance at the 
national and local levels, ineffective institutions, high 
levels of corruption, periods of prolonged and intense armed 
conflict, a breakdown of domestic political order, and vast 
humanitarian needs with assistance often blocked either because 
of lack of infrastructure or government obstacles, which is to 
say that all these countries are mired in fragility. They lack 
the institutional capacity and the political legitimacy to 
withstand the shocks of conflict and natural disaster.
    So what should we do? First and foremost, by the time 
famine is declared, it is already too late for many. Many of 
the deaths happen far before the famine declaration. We have 
already had the declaration, a famine in South Sudan. Three 
more are on the horizon.
    We have to, urgently and quickly, lean in to this response 
now. U.S. Government and international donors need to respond 
quickly to the urgent needs to provide lifesaving assistance, 
and U.S. leadership is essential to catalyze other donors to 
give.
    Our contributions will meet basic needs. We will also 
ensure others contribute, and responding to this extraordinary 
level of suffering is a reflection of who we are as Americans 
and will make the difference between life and death for 
millions.
    Secondly, as you discussed with Greg Gottlieb, we need to 
build on the important progress that has already been made to 
make our aid smarter, more effective, and more efficient. There 
has been significant headway in building resilience, as we have 
seen in places like Kenya and Ethiopia, resilience to recurring 
climatic and natural disaster shocks. We need to sustain that 
effort with greater support for local actors, early action to 
early warning by bridging the gap between relief and 
development action, and looking at more innovative financing 
options.
    We have made great progress. We need to continue it.
    Ultimately, we will not be able to address these four 
famines or the other humanitarian crises with humanitarian 
responses alone. A decade ago, 80 percent of our humanitarian 
assistance, global assistance, went to victims of natural 
disasters. A decade later, that percentage has flipped, and 80 
percent of global humanitarian assistance goes to victims of 
violent conflict.
    We need to use all of our tools--humanitarian assistance, 
development assistance, diplomacy, and security--in a very 
strategic, selective, systemic, and sustained way to address 
the drivers of these grave humanitarian crises. Countries like 
Yemen, South Sudan, Somalia, and the northeast region of 
Nigeria have all been trapped in multiple cycles of conflict. 
So without addressing these deeper drivers, we can be assured 
that there will be additional needs of humanitarian assistance 
in the future.
    Let me conclude by noting that yesterday, at the U.S. 
Institute of Peace, we hosted a conversation with Martti 
Ahtisaari, one of the great mediators and negotiators of his 
generation. He recounted his experiences of helping to resolve 
some of the protracted, complicated crises of his time, Angola, 
Namibia, Aceh. And he reminded us of two things: first, that 
these seemingly intractable conflicts are solvable; and, 
secondly, that he could not have accomplished anything without 
U.S. support.
    These are generational issues, but they are not insolvable. 
They have been resolved, and they can be in the future, 
including the four crises before us today.
    And as we like to say at the U.S. Institute of Peace, peace 
is possible.
    Thank you.
    [The prepared statement of Ms. Lindborg follows:]

                The Prepared Statement of Nancy Lindborg

                              introduction
    Chairman Corker, Ranking Member Cardin, and members of the 
Committee, thank you for the opportunity to testify before you today on 
the looming threat of four concurrent famines. Your continued attention 
and concern for these crises is more important than ever.
    I testify before you today as the president of the United States 
Institute of Peace (USIP), although the views expressed here are my 
own. USIP was established by Congress more than 30 years ago as a 
bipartisan, national institute dedicated to the proposition that peace 
is possible, practical and essential to our national and global 
security. USIP works directly in conflict affected countries to provide 
partners with the practical tools, analysis, training and resources 
they need to prevent, manage and resolve violent conflict. We know 
there will always be conflict, and when it is managed well, conflict 
can actually be transformative. Only when it becomes violent does 
conflict become destructive, tearing apart communities and countries, 
creating regional and international security threats, and as we are 
talking about today, pushing millions of people into famine.
                         implications of famine
    The international community is faced today with the gut wrenching 
specter of four concurrent famines. An estimated 20 million people are 
already at risk of starving to death within the next six months in 
north-eastern Nigeria, Somalia, Yemen and South Sudan, where famine was 
declared just over a month ago. This is equivalent to the entire state 
of Florida at risk of starvation. According to U.N. authorities, $4.4 
billion in international humanitarian assistance is needed by July ``to 
avert a catastrophe.''
    It is important to underscore that as used today, ``famine'' is a 
highly technical designation based on specific metrics. It is not used 
lightly. In order for the United Nations to officially declare a 
famine, three important conditions must be met. Twenty percent of the 
population must have fewer than 2100 kilocalories of food available per 
day; more than thirty percent of children must be acutely malnourished; 
and two deaths per day in every 10,000 people or four deaths per day in 
every 10,000 children must be being caused by lack of food.
    By the time these metrics are met, death is already pervasive. 
According to the U.N. Food and Agricultural Organization (FAO), nearly 
half of starvation deaths during the 2011-2012 Somali famine occurred 
before famine was declared. Children under five years old made up the 
largest percentage of causalities, accounting for more than 29,000 
deaths. For those children who survive, chances are very high that they 
have experienced severe malnutrition and will suffer irreversible harm 
to their cognitive and physical capabilities.
    By the time the international community declares a famine, it is 
essentially issuing a declaration that a humanitarian disaster has 
already occurred.
    Famine is rarely if ever caused by food shortages. In the 1980s, 
economist Amartya Sen challenged long held assumptions in Democracy as 
Freedom with the assertion that, ``No famine has ever taken place in 
the history of the world in a functioning democracy,'' arguing that 
democratic governments ``have to win elections and face public 
criticism, and have strong incentive to undertake measures to avert 
famines and other catastrophes.''
    Instead, famine occurs in fragile states that are vulnerable to 
natural disasters and highly prone to violent conflict. An estimated 
1.2 billion people currently live in countries affected by violent 
conflict, poverty and increasingly violent extremism. Starvation has 
been used as a weapon of war in conflicts across time. Instances of 
armed groups seizing or killing livestock, destroying food stocks, 
dismantling markets and employing siege tactics span history, including 
in each of these four countries.
    Twenty years ago, one of my great mentors, Ells Culver, described 
to me the horror of watching women and children literally crawl across 
the border from Ethiopia into Kenya to reach assistance during the 
Ethiopian famine of 1984, vowing he would dedicate his life to 
preventing that from happening again.
    In 2011, when the worst drought in 60 years brought devastation 
once again to the Horn of Africa, it was only Somalia--a dysfunctional 
government locked in a protracted armed conflict with the terrorist 
group Al Shabaab, which controlled large swaths of territory and denied 
humanitarian access--that tipped into famine. I remember with terrible 
clarity the Saturday in July 2011, when I got a call from a colleague 
telling me that famine was being declared in Somalia. It was a gut 
wrenching moment, and I thought a lot about Ells.
    I have worked in the humanitarian field for more than 20 years, and 
each passing year confirms for me the imperative of getting ahead of 
these crises and focusing on how to prevent, mitigate and resolve 
violent conflict, which is the distinct congressionally mandated 
mission of the U.S. Institute of Peace. Even as we respond with 
immediate help, we must urgently address the causes of these famines.
                          famine and conflict
    The four nations currently facing famine, Nigeria, Somalia, South 
Sudan and Yemen, are each distinct and complex in their own way, but 
they share important attributes. Each nation is characterized by:

    <bullet> Weak governance at the national levels and/or local 
levels;

    <bullet> Ineffective institutions;

    <bullet> High levels of corruption;

    <bullet> Periods of prolonged and intense armed conflict;

    <bullet> Failing economies;

    <bullet> A break down in domestic political order; and

    <bullet> Difficult or blocked humanitarian access.

    This is to say that all four countries are mired in states of 
fragility.
    Last year, I partnered with former Deputy Secretary of State Bill 
Burns, president of the Carnegie Endowment for International Peace, and 
former Undersecretary of Defense for Policy at the Defense Department 
Michele Flournoy, CEO of the Center for a New American Security, to 
conduct an independent, non-partisan Senior Study Group on Fragility. 
Building on two decades of scholarship, the Fragility Study Group 
report characterized fragility as the absence or breakdown of a social 
contract between people and their government. Fragile states suffer 
from deficits of institutional capacity and political legitimacy that 
increase the risk of instability and violent conflict and sap the state 
of its resilience to disruptive shocks. Fragile states are highly 
correlated with violent conflict, violent extremism, extreme poverty 
and vulnerability to natural disasters, and the predations of other 
powers.
    Somalia (1), South Sudan (2), Yemen (4) and Nigeria (13) are ranked 
among the most fragile states in the world according to the Fund for 
Peace 2016 Fragile States Index.
    Meanwhile, the most recent Global Terrorism Index and Global Peace 
Index places these four countries among the most terror-affected and 
least peaceful nations on earth. Each of these nations are contending 
with competing tribal, religious or clan-based identity politics while 
being wracked by violent conflict and terror.
                                nigeria
    Despite the early optimism around the election of President Buhari 
and his renewed focus on defeating Boko Haram, this terrorist group 
continues to leverage the region's historic marginalization, chronic 
poverty and poor education system to gain new recruits from Adamawa, 
Borno and Yobe states in Northern Nigeria--the states at the center of 
Nigeria's looming famine. More than 2 million people have been 
displaced since 2012 by Boko Haram, leaving behind fallow land and 
fields devoid of cattle, closed markets and escalating food prices. 
With villages empty and fertile ground untended, Boko Haram has taken 
to stealing what few cattle and food remains. More than 5 million 
people are now in crisis, most of them children. The crisis is now 
becoming a regional crisis, with emergencies declared in Chad, Niger 
and Cameroon as well.
    Humanitarian access, previously very difficult due to insecurity 
and government hurdles, is now dramatically scaled up, although with 
significant funding constraints.
                                somalia
    Despite heartening gains over the last five years, with recent 
peaceful elections delivering a new president, Somalia is once again 
suffering another round of destructive droughts. At the same time, Al 
Shabaab is again expanding its influence, undercutting fragile 
political progress. An estimated 363,000 children are currently 
malnourished and over 6 million people are in need of humanitarian 
assistance, the highest numbers since the 2011 famine. However, 
international assistance to the region faces many of the same 
challenges presented five years ago. There is significant concern that 
Al Shabaab could act as spoilers in any humanitarian intervention, 
potentially diverting aid or denying agencies access to effected 
populations.
                                 yemen
    Over the past 24 months, the insurgency in Yemen has escalated into 
a full-scale civil war, with Houthi and loyalist forces clashing while 
terrorist organizations like Al-Qaeda and ISIL feed on the conflict and 
sectarianism. The war and insurgency, which has killed 16,200 people 
since 2015, has pushed the Arabian Peninsula's poorest country to the 
brink of famine. I visited Yemen in 2012, when I first learned of the 
startling levels of nationwide stunting, and even then, an estimated 
44% of the population was in need of humanitarian assistance. Now, two 
years into a nationwide conflict, the World Food Program estimates that 
80% of the population is in urgent need of humanitarian assistance, 
while 14 million are estimated to be food insecure due to the conflict. 
Humanitarian access is constrained by poor security and a dismal level 
of funding, with only 7.4% requested funding raised to date.
                              south sudan
    Using the metrics described above, the South Sudan Integrated Food 
Security Phase Classification (IPC) on February 20 declared a famine in 
two counties of Unity State, Leer and Mayendit. Insufficient data is 
limiting the ability to apply that declaration in other areas, but all 
indications are of famine or near famine conditions in a larger swath 
of the country. Some 4.8 million people--nearly one person in every 
three in South Sudan--are severely food insecure, and one in every five 
people in South Sudan have been forced to flee their homes since the 
civil war began three years ago. More than 440,000 South Sudanese have 
fled to Uganda, turning one grassland area into one of the world's 
largest refugee camps in just six months.
    While South Sudan is not engaged in conflict with terrorist 
organizations, it is deeply divided and perilously close to descending 
into a second genocide. Despite an August 2015 peace agreement, 
violence has spread for the past eight months while the humanitarian 
situation has continued to deteriorate. The government has consistently 
blocked access to humanitarian assistance, including a recent decision 
to charge aid workers $10,000 for a visa. Continued fighting, 
government hurdles and lack of infrastructure mean that food is being 
airlifted into remote areas as the only means of reaching those in dire 
need.
    All four of these famine-affected countries are suffering massive 
displacement. Yemen (3.1 million displaced); Nigeria (1.8 million 
displaced); South Sudan (1.7 million displaced); and Somalia (1.2 
million displaced) are all struggling to manage huge flows of people, 
many of whom are extremely malnourished. To give a sense of scale, the 
1.4 million people that have been displaced in Nigeria's Borno state 
alone is roughly 40 percent more than reached Europe by boat in 2015.
    Famine also has a negative cascading impact on neighboring 
countries, as this type of large-scale displacement generates security 
problems, places strains on infrastructure, weakens economies, 
increases criminality and exacerbates tensions between refugees, locals 
and government officials.
                               resilience
    In the wake of the devastating 1984 Ethiopian famine, USAID pushed 
for more effective ways of responding to humanitarian crises, including 
the development of the Famine Early Warning System (Fewsnet), which was 
created by USAID with the leadership of Greg Gottlieb who testified 
here earlier. Fewsnet is still a powerful tool today, using an array of 
data to provide early warnings of impending food crises. However, other 
efforts were unfortunately not sustained.
    The successive droughts of 2011-12 in the Horn of Africa and the 
Sahel triggered a renewed push to find more effective ways to address 
recurring cyclical droughts that continually undercut development 
progress in these areas. The U.S. government provided global leadership 
with a vigorous commitment to early action in response to early 
warning, developing new policies and tools for generating greater 
resilience in the face of recurrent risks, and partnering with 
international, regional and country level government to align efforts 
for managing and reducing risks. USAID adopted a new agency-wide policy 
and organized a new resilience office to span relief and development 
efforts for greater sustained impact.
    Progress has been heartening, with evidence in Kenya and Ethiopia 
that investments by both the national governments and international 
donors in building resilience to the shock of droughts is protecting 
millions of people from falling into greater crisis during the current 
drought that is again gripping the region.
    However, in the last decade, humanitarian assistance flows have 
shifted from 80% of global aid going to victims of natural disasters to 
now 80% going to assist victims of violent conflict. In the last three 
years, U.N. humanitarian appeals have risen from $16.2 billion in 2012 
to the current U.N. Global Appeal of $22.6 billion, driven almost 
entirely by a toxic brew of violent conflict, disease and drought--
including now the four impending famines. The urgent challenge now is 
to address those drivers of violent conflict that are fueling a 
worldwide humanitarian crisis.
                            recommendations
    These four pending famines present an extraordinary humanitarian 
challenge, as well a rising set of regional and international security 
threats. Addressing these crises will require urgent and sustained U.S. 
global leadership to mobilize partners and action.
    Urgent humanitarian action: The U.N.'s Office for the Coordination 
of Humanitarian Affairs (OCHA) is appealing for $5.6 billion in 2017 to 
address famines in Yemen, South Sudan, Nigeria and Somalia, $4.4 
billion of which is required urgently by June to massively scale up 
efforts and avert an even graver crisis in the four countries. The U.S. 
government is the leading contributor of humanitarian assistance, 
although as a percentage of gross national income (GNI), the U.S. ranks 
19th. Without significant contributions from the U.S. government, it is 
less able to catalyze contributions from other donors and meet even 
minimal life-saving needs for life-saving food, medical assistance and 
shelter immediately. Our urgent action is a deep reflection of who we 
are as Americans, and action now can make the difference between life 
and death for millions of children, women and men.
    Continued investment in resilience: U.S. government leadership and 
support is also vital for ensuring sustained progress in more effective 
and efficient humanitarian delivery. A range of changes are already 
underway to enable smarter assistance, including more flexible funding 
that enables greater support for local actors, greater ability to 
tailor response to needs on the ground and bridging the gap between 
relief and development for more sustained results, including a focus on 
managing the risks that otherwise upend U.S. development investments. 
More innovative financing is critical, such as insurance for areas 
chronically hit by natural disaster.
    Many of these approaches were highlighted at the World Humanitarian 
Summit in May 2016, along with the commitment to broaden the pool of 
donors.
    Increased focus on addressing drivers of violent conflict: 
Ultimately, the U.S. will not be able to address these four famines or 
other humanitarian crises with humanitarian responses alone.
    As noted in the Fragility Study Group report, the U.S. needs to use 
all its tools--development, diplomacy and security--in a strategic, 
selective, systemic and sustained effort to address the fragility that 
repeatedly results in grave humanitarian and security crises. Countries 
like Yemen, South Sudan, Somalia and the northwest region of Nigeria 
have all been trapped in multiple cycles of conflict. Without 
addressing the deeper drivers of these conflicts, the U.S. can be 
assured of continued cycles of humanitarian need. Instead, we need to 
get ahead of these crises instead of relying on late and more costly--
both in financial and human terms--responses.
    Decades of research has resulted in well-established lessons that 
peaceful, sustained progress requires security and justice for all 
citizens; legitimate governments characterized by inclusive politics 
and accountable institutions; locally-led solutions; inclusive economic 
growth; and sustained engagement by the international community. 
Countries lacking those elements are more likely to plunge into crisis, 
as illustrated by the four countries we are discussing today.
    Without question, progress requires local partners--whether at the 
local or national level--for meaningful progress. There is no simple 
prescription, but the U.S. government can articulate a way forward and 
play a leadership role in shaping a response that can saves lives and 
ultimately get ahead of these crises.
    Thank you, Senators, for your continued focus and attention to this 
critical issue. I look forward to answering your questions.
    The views expressed in this testimony are those of the author and 
not the U.S. Institute of Peace.

    The Chairman. Thank you.
    Go ahead, sir.

  STATEMENT OF YVES DACCORD, DIRECTOR-GENERAL, INTERNATIONAL 
        COMMITTEE OF THE RED CROSS, GENEVA, SWITZERLAND

    Mr. Daccord. Thank you very much, Chairman Corker, Ranking 
Member Cardin, and all distinguished members of this committee. 
I am very happy that you are holding a hearing on this very 
specific issue. I would like to share four points with you, and 
these four points are informed and I would say tainted by the 
experience of my own organization, the International Committee 
of the Red Cross.
    As you know, we are focusing on extreme vulnerability in 
times of war. This is where we work. We work in the four 
countries we mentioned. We also work in Ukraine, in 
Afghanistan, in Syria. And when we work, it does not mean we 
are working in Damascus. We are working in the homes. We are 
really closely related to the people, in order to understand 
their needs and what is happening.
    We also discuss and engage with every single party to the 
conflict, which means, of course, government but also non-state 
armed groups, as we call it now.
    And it is important because there will be some connections 
in what I would like to say.
    The first point, quickly, is about the label we want to 
give to this crisis. As an organization, we do not like so much 
to compare crises. Is this crisis worse than before? Is Syria 
suffering worse than South Sudan? It is always complicated.
    But we do recognize, though, that what we are facing right 
now in terms of humanitarian crises in these four countries 
plus Ethiopia and Kenya is possibly becoming one of the most 
serious humanitarian crises that we are facing in recent 
history, and it is for three reasons. One, the nature of the 
crisis, as Nancy mentioned, armed conflict together with, in 
fact, famine, which makes it so complex. B is, in fact, the 
scale of it. We are talking about 20 million directly affected 
plus, as you mentioned, several other millions being possibly 
affected. And the third element is the impact. You have an 
impact right now in these four countries, talking about Yemen, 
South Sudan, Northeast Nigeria, and Somalia. But you do have an 
impact also in the region. If you just look at Northeast 
Nigeria, Gabon, Chad, Burkina Faso are already affected 
directly. If you look at Yemen, you can see immediately all the 
region is affected.
    And it is a crisis that can affect all of us. If you look 
at the impact over time in terms of life, funds, but also 
migration.
    So, yes, it is absolutely important that we focus on this 
crisis. That is key.
    Point two, timing. So I think there is an issue about 
timing. I am of the opinion, we are of the opinion, that we can 
make a difference over the next coming weeks, and I want to 
insist on that one. Specifically, in two countries, Yemen and 
Somalia, where, if we mobilize ourselves, we can prevent the 
famine in these two countries. On the rest, it is also long-
term aid that needs to happen, but there is a timing issue. 
Time is short. We need to be able to focus.
    My third point is about some of the specific elements of 
the crisis. One, the population and communities in these four 
countries are somewhat not in a position anymore to absorb 
shock. This is why the crisis is so complex, because there is a 
war going on, conflict. People are displaced. They do not have 
all the choices.
    South Sudan is 3 million people displaced in 3 years, out 
of 11 million. If you look at Yemen, it is 70 percent of people 
needing aid, just to give you a sense. If you look at Somalia, 
60 percent of the people depend on livestock. Livestock is 
gone, almost.
    So there is a very fragile environment which is very 
complex, which means that communities are not able to absorb 
shock.
    But the problem is the systems, when they exist, are also 
under pressure--the health system, the water sanitation. If you 
think about Yemen, 160 hospital health structures attacked last 
year. This just gives you a bit of a sense.
    So we have a situation where resilience is extremely low. 
That is why it is so complex. At the same time, you do have, in 
this full context, local and national authorities and 
governments not in a position to provide basic services to the 
population. They do not. Sometimes because they cannot. They do 
not have the means, the infrastructure. But most the time, it 
is because they are themselves party to the conflict, which 
makes things extremely complicated.
    And my fourth and last comment, Mr. Chairman, is the fact 
that we need to have a complex response to these complex 
issues. One, we need to massively scale up the humanitarian 
response, very clearly. But doing that, we need to also be 
pragmatic on who can do what.
    And here the question is, who has access to which 
communities? Who is able to perform now? Who is able to perform 
in 6 months' time? There are differences. We need to be able to 
focus on that one. We need to make sure we do not now just do 
massive scale-up everywhere. We need to scale up where there 
are issues, and we need to impact that in every country.
    And here the focus is really on displaced people, on 
communities hard to reach in places that are not always 
controlled by governments. That is where it is important, so 
the access is central.
    Point two, and Nancy mentioned it, I cannot imagine it is 
just a humanitarian response. We are aware as humanitarians the 
limits of what we can do. We will do our best, but there is a 
diplomatic surge which is needed. There is really a diplomatic 
surge, a massive diplomatic surge is needed in these four 
countries in order to end conflict and to make sure that also 
states but non-state actors are also held accountable to 
international humanitarian law, the law of war. Very clearly.
    Look at South Sudan. Look at Yemen. Look at Northeast 
Nigeria. Look at Somalia. There are elements of leadership 
which is not just a financial leadership but also a diplomatic 
leadership.
    Thank you very much.
    [The prepared statement of Mr. Daccord follows:]

                 The Prepared Statement of Yves Daccord

    Chairman Corker, Ranking Member Cardin, distinguished Committee 
members, thank you for the opportunity to testify today on what is fast 
becoming one of the most critical humanitarian issues to face mankind 
since the end of the Second World War. As famine looms over several 
countries in Africa and the Middle East--with many millions of people 
suffering severe food insecurity and increasing numbers facing 
starvation--we are at the brink of a humanitarian mega-crisis 
unprecedented in recent history. While the situations in the four 
countries primarily affected--South Sudan, Somalia, Nigeria and Yemen--
are all distinct, the overall scale of acute humanitarian needs in 
different places at the same time is immense.
    My statement today will focus on the urgent need for accelerated 
efforts to avert such a catastrophe, in consideration of the scope of 
the problem, the ICRC's mandate and operational response on the ground, 
and the vital role of the U.S. in its support to our work and to 
humanitarian action more broadly. Sustained and robust U.S. funding for 
humanitarian action--which not only saves lives but also helps shorten 
crises, facilitates eventual reconstruction and reconciliation, and 
promotes stability--is needed now more than ever.
    Our main message is clear: immediate, decisive action is needed to 
prevent vast numbers of people starving to death. We also need to 
address the root causes of this desperate situation. If we act now, the 
worst-case scenario can still be avoided, particularly in Somalia and 
Yemen. The ICRC has a long-standing presence on the ground in all four 
affected countries: as one of very few international humanitarian 
actors who are effective front-line responders, we are often able to 
reach vulnerable people in areas inaccessible to others. We need your 
support, and we need it now.
                   scope of the humanitarian problem
    The humanitarian crises in all of these contexts are, in differing 
degrees, man-made and all are to a large extent preventable.
    The main cause of hunger--and of wider humanitarian need--in all 
four countries is protracted (and intractable) armed conflict. All are 
characterised by asymmetric warring parties, particularly fragmented 
and multiplying non-state armed groups; by a widespread lack of respect 
for even the most fundamental rules of international humanitarian law; 
and by a lack of any viable political solution to end them. In 
addition, all of these armed conflicts have regional repercussions, 
which in the case of northern Nigeria are being felt across the entire 
Lake Chad region.
    In South Sudan, more than three years of brutal armed conflict has 
resulted in economic collapse, with large-scale displacement, loss of 
agriculture and livestock, massive inflation, rising food prices, 
widespread hunger, and--in areas where specific criteria have been 
fulfilled--famine. One in three households is estimated to be in urgent 
need of food. The approximately 3.4 million people who have been forced 
to flee their homes are among the most vulnerable, fearing for their 
lives and often hiding in remote swampy areas.
    In Somalia, northern Nigeria and Yemen, harsh climate conditions 
and environmental problems, including cyclical drought, are major 
factors in the current crises, but not decisive ones. Combined with 
chronic insecurity and fighting (more than a quarter of a century in 
the case of Somalia), and extremely constrained humanitarian access, 
the consequences are however catastrophic.
    In Somalia, where memories are still raw of the famine that killed 
more than a quarter of a million people just six years ago, the adverse 
effects of drought are being felt much more widely than in 2011. An 
estimated 6.2 million people, over half the country's population, are 
now facing acute food insecurity across the country and are in need of 
urgent assistance. With famine looming once again, there is a growing 
concern that should the aid response fail to keep pace, the situation 
will get much worse.
    People living in conflict-affected areas of north-eastern Nigeria 
are likewise experiencing desperate food shortages, with an estimated 
1.4 million internally displaced people in Borno state (one of the 
hardest-hit parts of the country) as well as resident communities in 
difficult-to-reach areas living a particularly precarious existence. 
Some 300,000 children in Borno state alone are expected to suffer from 
severe acute malnutrition over the next twelve months. In some remote 
areas, general acute malnutrition rates among children, pregnant women 
and lactating mothers are reported to be as high as 70 percent.
    And in Yemen, decades of recurrent upheaval, drought and chronic 
impoverishment preceded the current calamitous situation--where two 
years of intensifying conflict have caused spiralling humanitarian 
needs including alarming levels of acute malnutrition, especially among 
children. With a mere 45 percent of health structures functioning and 
less than 30 percent of vital medicines and medical supplies entering 
the country, hospitals with which the ICRC works have reported a 150 
percent increase in child malnutrition cases. Fighting in or near 
ports, such as Hodeida, has seriously hampered the import of vital 
humanitarian supplies of food, fuel and medicine needed to address 
critical needs and stave off famine.
                       icrc mandate and response
    While famine poses common problems in the four contexts, each 
crisis has its own dynamics and the humanitarian response must be 
adapted accordingly.
    The ICRC, broadly, works with Red Cross and Red Crescent Societies 
worldwide to deliver relief and protect people from armed conflict and 
violence. We work even in the most constrained and complex situations 
of armed conflict, where the authorities are not willing or able to 
protect or assist people in need, and where a direct and radically 
principled response is invaluable. This requires an approach that 
demonstrates the value and practical application of the fundamental 
principles of impartiality, neutrality and independence in a number of 
ways. It must be needs-based, have close physical proximity to the 
beneficiaries, and entail engagement with all stakeholders, including 
state and non-state actors--thereby gaining the widest possible 
acceptance and respect, and through this, the widest possible 
humanitarian access to people in need of protection and assistance.
    Better protecting conflict-affected people--through law, policy and 
operations--is at the heart of our overall strategy. To this end, we 
promote compliance with international humanitarian law at all levels, 
and engage in confidential dialogue with state and non-state actors 
with the aim of preventing violations from occurring in the first 
place. We have worked with states, including the U.S. government, for 
over a century to develop and apply the law of armed conflict--rules 
that protect soldiers, civilians, detainees, and the wounded and sick 
in war.
    At the same time, the ICRC works to address victims' wide-ranging 
needs--be they food, water, shelter, other essential items or medical 
care; tracing missing family members and re-establishing links between 
them; or ensuring that people in detention are well-treated.
    While humanitarian action is of course vital to save lives and meet 
short-term needs, the long-term nature of many of today's wars means it 
is also increasingly necessary to sustain basic services and 
infrastructure in fragile environments, and at the same time boost 
livelihoods and build resilience against shocks. In places at risk of 
drought and ultimately famine, this may include improving access to 
clean water, strengthening nutritional programmes as well as hygiene 
awareness, protecting vital livestock against diseases and providing 
various forms of economic support.
    The scope and magnitude of these humanitarian needs, and the 
reality of today's broad humanitarian ``ecosystem'' comprising diverse 
actors working on local, national and international level, with varying 
degrees of organization, approaches and goals, makes effective 
coordination and constructive engagement with diverse stakeholders all 
the more imperative. For the ICRC, this means strong and effective 
partnerships primarily with Red Cross and Red Crescent societies, but 
also engaging closely with states and non-state actors, U.N. Agencies, 
regional or faith-based organizations and many others.
    The ICRC, together with Red Cross and Red Crescent societies, has 
been on the ground for many years in the four countries now threatened 
with famine. Just a few brief examples of our 2016-17 activities are as 
follows:

   Provided food to nearly 750,000 people in South Sudan. The ICRC 
        will continue food assistance in 2017, working alongside the 
        South Sudan Red Cross Society, while also expanding programs 
        that provide seeds and tools to communities, helping them feed 
        themselves. In 2017, ICRC surgical teams are continuing to 
        provide urgent medical care and build up local medical 
        capacities in South Sudan.

   Working closely with the Somali Red Crescent Society, provided 
        nearly 750,000 people in Somalia with urgent food assistance, 
        clean water, and medical attention. In 2017, the ICRC is 
        rapidly scaling up these efforts to mitigate the risk of 
        famine.

   Provided food to more than 1.2 million people in conflict-affected 
        areas of Nigeria, and agricultural inputs such as seeds and 
        fertilizer to more than 280,000 returnees to enable them to 
        start farming again. The ICRC also provided hundreds of 
        thousands of people with medical assistance, access to water 
        and improved sanitation and hygiene. In 2017, the ICRC is 
        stepping up efforts to meet urgent food and other needs 
        including in the most difficult-to-reach areas, and supporting 
        the emergency response work of the Nigerian Red Cross Society.

   Supplied 20 medical centers in Yemen with surgical items and 
        critical medication, enabling local hospitals to treat more 
        than 250,000 people injured by the conflict or who were in need 
        of medical attention, and supporting the critical work of the 
        Yemeni Red Crescent Society. The ICRC also provided food and 
        other items, like tarps and water cans, to nearly 750,000 
        people in Yemen. In view of the threat of famine, the ICRC is 
        expanding its operations in 2017, focusing on supporting 
        hospitals and providing food to hungry people.

    The ICRC has already begun scaling up its work in all four 
countries. In total, we will be spending at least 400 million CHF 
(about 400 million USD) this year. But in view of the overwhelming 
needs, this is still just a drop in the ocean.
                         what needs to be done
Financial Support: Short-term Needs and Long-term Resilience
    First and foremost, there is a need for donor generosity and more 
humanitarian aid, to facilitate humanitarian action to save lives and 
meet short-term needs, but also to enable investment in programmes that 
help build the resilience and self-sufficiency of affected communities. 
This could be providing training and grants to women heads of 
households to start income-generating activities, or training staff of 
the national Red Cross or Red Crescent society in first aid and 
emergency preparedness, to give just two examples.
    Both the quantity and quality of U.S. support to the ICRC over many 
years has been outstanding, and vital for us to be able to do our work. 
The U.S. government has been the ICRC's biggest single donor since 
1980, covering between 20 percent and 28 percent of our annual 
expenditures. This reflects strong, bipartisan support for the ICRC and 
its humanitarian action. In 2016, the U.S. State Department provided 
the ICRC with 417 million USD, representing 24 percent of the ICRC's 
global budget. Congress provides critical support through the Migration 
and Refugee Assistance account in the State/Foreign Operations 
appropriations bill. This generosity also reflects a level of trust and 
appreciation that the ICRC provides good value for money, based on the 
relevance, effectiveness and efficiency of our humanitarian work.
    However, it is not just the size of the contribution that counts. 
The U.S. government has also provided the ICRC with a significant 
amount of flexible funding--money not earmarked for specific crises. 
Flexible funding enables the ICRC to respond quickly and early to 
emergencies with vast needs but less visibility. Without it, the ICRC 
would be unable to fulfill its international mandate of protecting and 
assisting the victims of all armed conflicts--not just the ones which 
attract media attention or are high on the political agendas of states.
    The ICRC response to the crisis in Nigeria is one example. The ICRC 
has been providing food, medical and other live saving assistance to 
people affected by conflict in Nigeria for eight years. Few other 
agencies were working in north-eastern Nigeria until 2016, when the 
conflict finally gained more global media attention, and thus 
humanitarian funding. Without the quantity and quality of U.S. 
financial support, the ICRC may not have had a significant presence in 
northern Nigeria until last year, potentially resulting in millions 
more displaced or facing starvation.
    We would like to take this opportunity to reiterate our deep 
gratitude to the U.S. government, including Members of Congress, for 
this historic financial support that helps save countless lives and 
stabilize conflict areas. Republican and Democratic administrations 
alike have robustly funded the ICRC's operations and humanitarian 
action more broadly. We respectfully ask for that support to continue.
    At the same time, the scale and number of humanitarian crises 
requires that we seek out new donors, and ask other governments that 
could contribute more to do so. The U.S. can help the ICRC develop a 
truly global support base by urging governments to follow its example 
of providing predictable, quality financial support to the ICRC.
    We are also seeking more collaborative and innovative solutions 
with increasingly diverse stakeholders, including the corporate sector 
and research and development institutions. Beyond simple pecuniary 
support, the corporate sector's wealth of ideas, expertise and 
resources--be it in the domain of communication technologies, health 
care and a wide range of others--has become invaluable in helping us to 
better deliver on our mandate, to reach people in need of protection 
and assistance, and to provide a relevant and effective response to 
their needs.
             compliance with international humanitarian law
    Not only is there a need for more humanitarian aid, but also a need 
to ensure that it actually reaches the people who need it most. This 
means ensuring better humanitarian access and proximity to the people 
directly affected, on both sides of frontlines. And this, in turn, 
means that both military forces and armed groups must meet their legal 
obligations to facilitate the delivery of humanitarian relief supplies 
to all those who need it.
    The basic message is simple: better respect for the rules of 
international humanitarian law and for the principle of humanity is the 
single best way to reduce suffering in war. Civilians and civilian 
objects must not be targeted. Wounded and sick people's right to health 
care during armed conflict must be respected and protected, and attacks 
on health personnel and facilities must stop. The basic services that 
preserve life--and prevent starvation--need to be protected. Blockades 
need to be lifted--in the name of humanity.
    Strengthening compliance with humanitarian law and preventing 
violations is therefore a fundamental prerequisite to achieving better 
protection for people affected by armed conflict.
    For the ICRC, this entails engaging with all parties to conflict--
no matter how challenging this may be--in an effort to gain acceptance 
and access to people in need. It also entails engaging with other 
stakeholders--including states--who can positively influence the 
behaviour of parties to conflict.
    The relationship between the ICRC and the U.S. is strong in this 
regard too, with the two enjoying a constructive and confidential 
dialogue on the latter's combat operations and detention activities 
around the world. The U.S. has a long tradition of promoting the law of 
armed conflict--a tradition it can continue by ensuring that its armed 
forces respect this law and influencing security partners to do the 
same. Through training and sharing of best practices, the U.S. can also 
help partner forces protect civilians and detainees in war.
                               conclusion
    Mr Chairman, Ranking Member Cardin, the onus is of course on those 
who wage war and those who support them to prevent these humanitarian 
crises from becoming even bigger tragedies, and ultimately to show the 
political will required to end the conflicts.
    Yet as long as political solutions remain elusive, it is incumbent 
on humanitarian organisations such as the ICRC to alleviate the 
suffering as best we can, and try to prevent existing humanitarian 
crises becoming uncontainable catastrophes. For that we need funding 
and humanitarian access. The U.S. can--and does--play a vital role in 
supporting us in both these domains.
    Responding only when people are already dying of hunger will 
inevitably be too little, too late. The cost of delay--in terms of 
finance but moreover in terms of lives lost--would be unconscionable.

    The Chairman. Thank you both for that testimony.
    So I think you get a sense that most members of this 
committee are going to do what is necessary to make sure that 
we continue to play a role in helping people who are starving 
not to starve. And I think, over time, there will be a 
commitment to weed out some of the special interest issues that 
are keeping us from feeding 5 million more people. I think that 
will happen.
    I think you will see a united effort to make sure there is 
appropriate funding. Look, every organization can be 
streamlined. We all know that. The two of your organizations 
could be streamlined. Every organization can be looked at.
    But my sense is you are going to see a combined effort to 
make sure that these types of efforts are appropriately funded. 
But my question is this. Two weeks, I mean, we get emails, we 
understand people today, as we sit here, are dying. In some 
cases, a thousand people a day. A thousand people a day dying.
    What is it that we can do in our respective positions right 
now today, if anything? Hopefully there is. What is it that we 
can do to help try to meet the needs that you are talking about 
over the next 2 weeks? I would love to know.
    Most of the stuff we do around here is long term. It takes 
a while. It happens way beyond, in many cases. No doubt, a 
diplomatic surge, I could not agree more.
    But what can we do as individual committee members or as a 
group to try to meet the needs you are discussing over the next 
couple weeks?
    Ms. Lindborg. Right now, the first and most important 
response is to ensure that funding is moving through the 
humanitarian channels. All of those other things are needed, 
approaches that marry the development and the resilience 
approaches, the diplomatic surge. But right now, it is saving 
lives and it is making sure that those urgent appeals are being 
filled by global actors, by global donors.
    And that sometimes requires going around and saying, to a 
broader set of donors, it is up to you as well, which is a role 
that the U.S. has frequently played quite successfully.
    Mr. Daccord. I think, first of all, by showing an interest 
and a focus on this crisis. That is what you are doing. It is 
important. B, by ensuring funding. The funding is extremely 
important right now. And, C, to clarify where the funding needs 
to go.
    The Chairman. And we are going to do that, I am sure, as a 
group. That is going to be pursued and will happen.
    But I am talking about over the next 2 weeks. I mean, you 
referred to the fact that, over the next 2 weeks, millions of 
people may well perish. And so what is it that we might be able 
to do in the short term to have some effect on that?
    Mr. Daccord. Ranking Member Cardin, you mentioned what is 
happening about Somalia. There is an interest right now. There 
is a diplomatic interest also, to make sure that is around 
Somalia, for example.
    Somalia and Yemen are maybe the two countries I would 
prioritize right now, because there is a possibility both at 
the political level, and this is one element, the diplomatic 
level, but also the humanitarian level where, over the next 
coming weeks we make a difference.
    I mean, there is a question in Yemen about access. 
Everybody knows that, right now, there is a huge issue around 
Taizz and Hudaydah, very clear. But maybe not this committee 
but your interest in helping, maybe your country, an important 
country, playing a role, focusing on the question will help. I 
can tell you, that is for sure.
    And, B, making sure also that some of the funding goes now 
directly, specifically, to humanitarian actors like us being on 
the ground being able to perform right now.
    It is not a time of planning right now. It is a time of 
acting. And that is what is so important, to be able to also 
let's say prioritize what needs to be prioritized in terms of 
funding and diplomatic engagement.
    The Chairman. Who is the lead pitch person internationally 
to generate the immediate funding, this additional altar call, 
if you will, that is occurring right now? Who is the lead pitch 
person on that internationally?
    Mr. Daccord. I think right now you have two models. One, of 
course, is the U.N. And I think, as you may know, the Secretary 
General of the U.N. has really mobilized, in fact, the entire 
international community. I think the good news is I have seen 
them also mobilizing the World Bank.
    So I think you can see things moving up. And I would really 
commend the Secretary General of the United Nations to have 
brought the attention and mobilized the U.N. and its entire 
forces. That is one element.
    And then, B, we have organizations like the Red Cross and 
Red Crescent, my own organization. I also feel responsible. We 
are not part of the U.N. We are a different organization, but 
we are collaborating, and we are mobilizing ourselves.
    We are talking, for our own organization, $400 million that 
we are spending and using now on the ground specifically.
    And then, last but not least, I already mentioned about the 
diplomatic outreach. There is an important limit about the 
diplomatic outreach which needs to come from your government. 
That is for sure. It is not the only government but your 
government can play an extremely important role when it comes 
to Yemen, for example. Very central.
    The Chairman. Are there any U.S. dollars today that for 
some reason have been committed and yet are not making their 
way to the appropriate place today?
    Mr. Daccord. I do not know. My sense is that I see an 
interest at the level of the State Department, a level of your 
government. But I think there is maybe also a bit of worry of 
how we spend the money right now. I think that is for sure. But 
I think--I hope--that the crisis will help, in fact, spend it 
at the right places.
    I would just be very careful, again. When you look at 
figures, it is overwhelming, right? And I do understand that 
there is a need to unpack the questions. And here I really 
would like to stress there are elements we need to happen 
urgently now, and there are elements that are more short and 
long term.
    That needs to be distinguished, because when you look at 
the figures, I do understand. If I were American citizen, I 
would say, my God, we are talking about millions of people, 
billions of dollars. What does that mean? What are the plans?
    What we can say is there are elements that need to happen 
now, and we can reprioritize that, and that is important to be 
clear about that. We need to clarify also who can do what and 
make sure that, in the way that we intervene as humanitarians, 
we are doing that smartly among us.
    And last but not least, I really want to insist there 
really is a diplomatic surge which, frankly, as humanitarians, 
we cannot do. That needs to happen at the state level.
    Ms. Lindborg. If I could elaborate on that, if dollars are 
not reaching their intended targets, in some of these cases, it 
is because of obstacles being presented by the governments of 
these countries. And where there could be very effective 
immediate action is making it clear to the Government of South 
Sudan and to various actors in the Yemen conflict, for example, 
that the world will respond, and we need them to do their part.
    We need them to not charge $10,000 per visa for an aid 
worker. We need them to allow barges to move up the rivers to 
the more remote locations and have a concerted both regional 
and international set of pressures that says, with response and 
global response comes local responsibility.
    The Chairman. Thank you very much. It is very powerful 
testimony. Thank you both for what you do.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman. I also compliment 
our two witnesses not just for being here but for what you do 
on the ground to help in this regard.
    I read out the percentage of funding on the U.N. 
humanitarian appeals in the four countries we are dealing with, 
and they are between 6 percent to 21 percent, so we are well--
it is very low. So the funding issues are a significant 
problem.
    But it is more than funding, as has been pointed out. 
Yemen, we do need a diplomatic surge. The United States plays a 
critical role in Yemen. We are dealing with the neighbors of 
Yemen, and we are engaged in supplying military assistance in 
dealing with those issues.
    So we do play a role, and I think we need to look at the 
people of Yemen and recognize that, as part of our diplomatic 
role, we need to get access for humanitarian assistance in 
helping the people of Yemen that have been so much impacted.
    In South Sudan, you are right there also. In South Sudan, 
the youngest country in the world, and yet we have seen their 
government do horrible things in regards to allowing 
international intervention to help their own people. Instead, 
they seem more interested in arms than they are in food, and we 
have to act in that regard.
    So each country is different, but they do have a lot in 
common.
    The chairman asked a very important point. What can we do 
short term to provide relief? Well, it seems to me, in these 
countries, access by humanitarian workers is an area that could 
be done in the short term, that if we put a real spotlight on 
that $10,000 visa, you cannot defend that. South Sudan cannot 
defend that. If we put a real international spotlight on 
humanitarian workers' safety issues--and I commend you, because 
your frontline people are at risk. I mean, it is difficult work 
under ideal circumstances, but under attack, it becomes 
impossible.
    So could you just share with us what we could do to perhaps 
give you greater access so that you can, in fact, have safer 
access on the ground in order to assess and help the people 
that are in need?
    Mr. Daccord. Thank you very much, Senator. Maybe you will 
allow me to be a little bit more specific about access and just 
say a word, and then link it with your question of what we can 
do.
    My organization, the International Community of the Red 
Cross, what we do is we engage with every party to the war, so 
let's look at Yemen. We would talk to all the parties, to the 
governments but also to all of what we would call let's say the 
rebel groups and the different groups, including the one which 
could be labeled as outlaw or terrorist.
    We do that with a very, very clear, in fact, humanitarian 
perspective and agenda, which is we are talking to them in 
order to make sure that the checkpoint can be crossed, in order 
to make sure that the people can go to the hospital, in order 
to make sure that Taizz right now, which is besieged, can get 
the water they need. And you need to talk to the people.
    So in that sense, access is something which is created. It 
cannot be ordered. I mean, this is something you negotiate on a 
daily basis, and it is sometimes extremely complex. It took us 
years to really get access and get tolerated in Northeast 
Nigeria. So you arrive, and then you negotiate.
    That is how we do that, and it is sometimes very 
complicated, to be honest, because, of course, some of these 
groups, they will very carefully look at us and how we connect 
and what are we saying and how it works.
    Where you can play a role as a very important government, 
and you have played that role already for quite a while, is 
exactly what you mentioned on global and specific issues.
    Global is very clear. If there is a sense by some of the 
government, but also a non-state armed group, that your 
government and you as a steering group and as a committee, you 
still have an interest, a focus on South Sudan, as an example, 
authority will behave differently. They know. They will be very 
careful on the way they will look at that.
    Yemen, the same. Northeast Nigeria also.
    And then there are specific elements. And here, if I look 
at Yemen, everything related to the sea and to the port is a 
big issue that are sometimes beyond what we can do as 
humanitarian organizations. You can ensure access to the ports. 
You can make sure that the blockades are done but also with a 
humanitarian exception very clear.
    You can talk to, in fact, as you mentioned, coalition 
countries, which are close to your country and help possibly to 
integrate international humanitarian law perspective when it 
comes to, in fact, delivering food and delivering aid. And I 
think this is something which we would value enormously.
    Specifically when it comes to Hudaydah, for example, right 
now, in Yemen, that would be very, very important. It would 
make a lot of difference for a lot of people. Seventy percent 
of people right now in Yemen need, in fact, aid, and this aid 
needs to come from outside. There is no choice. There is no 
market anymore in Yemen, so we need--absolutely, the blockade 
needs to cease and it needs to be managed.
    Senator Cardin. Mr. Chairman, I think that may be a 
specific area within the next couple weeks that our committee 
may want to keep the look on, Hudaydah. Clearly, that is a 
target for action, and it is the major entry point for 
humanitarian--could be the major entry point for humanitarian 
assistance, and it is unclear as to the current abilities to 
get humanitarian aid into Yemen because of the control by the 
illegitimate authorities. If it is taken back, there is concern 
as to whether the government would be interested in using that 
port for humanitarian needs.
    I think that is an area where we may be able to have some 
impact that could really help people save their lives.
    I appreciate that comment.
    The Chairman. Senator Young?
    Senator Young. Thank you both for your service and for your 
testimony.
    I would like to ask Ms. Lindborg, picking up on some 
testimony I elicited from Mr. Gottlieb earlier, I actually 
cited your prepared statement and your reference to Amartya 
Sen's observation in Development as Freedom that no famine has 
ever taken place in the history of the world in a functioning 
democracy because democratic governments have to win elections, 
face public criticism, have strong incentive to undertake 
measures to avert famines and other catastrophes. And we 
discussed here today the principle of resilience.
    I would just like to get your thoughts. Is Sen's assertion 
correct? Isn't the ultimate resilience measure a functioning 
democracy? And in your opinion, how effective has our 
government, USAID in particular, been at promoting democracy 
and good governance?
    And if you could sort of include in there how you assess, 
how you a measure, effectiveness in democracy promotion, I 
would be grateful.
    Ms. Lindborg. Yes, thank you.
    You know, since Amartya Sen made that statement in the 
1980s, which really turned on its head the assumption that 
famines were a function of food scarcity, and instead made the 
assertion that it is the result of failed democracies or 
ineffectual systems, scholarship has really moved us forward on 
this understanding of the importance of having what is called a 
functioning state-society relationship, where you have both 
state capacity, the ability to provide services, the political 
legitimacy, and the inclusion of people from throughout their 
country.
    And when that is nonexistent or when it is a frayed 
relationship is when you have greater fragility in the system, 
which I talk about in my testimony. And that is what leads 
these states to not being able to manage conflict so that it 
does not become violent and rip them apart.
    Senator Young. So where has our government, if at all, 
fallen short with respect to adapting to this new scholarship?
    Ms. Lindborg. I think our greatest difficulty is that it 
really does require a combination of assistance, development, 
humanitarian assistance, as well as understanding the security 
dimensions and the need for using our diplomatic, our security, 
and our development tools together in a coherent way to bring 
to bear on countries that are in deep states of fragility. That 
is our biggest challenge.
    I co-chaired a study on this, a senior study group on 
fragility. I am happy to share that report with you.
    Senator Young. I will look forward to receiving it. Thank 
you.
    In his prepared statement, Mr. Gottlieb states that the 
United States' commitments to humanitarian efforts also enable 
us to push for greater transparency and improve efficiencies in 
the international system, specifically in the United Nations. I 
serve as chair of the subcommittee that oversees multilateral 
international development and multilateral institutions.
    I would like to get both of your thoughts, if you have 
thoughts on this matter, with respect to specific examples 
where there is a need for greater transparency and improved 
efficiencies in United Nations Agencies.
    Mr. Daccord. Thank you, Senator.
    Senator Young. Is the question arcane or is it politically 
sensitive?
    Mr. Daccord. No, I think the question is very--let me try 
to answer. I am not sure--it is a big question.
    I can start with my own organization. My experience--first 
of all, we benefit from an extremely powerful and strong 
support from the governments, including the Members of the 
Congress, which is fantastic over time, and we value that.
    And always, the support is not just financial support. It 
is not just diplomatic support. It is also a partnership, which 
means, as an organization, including my organization, including 
working in the most difficult places, you need to be able to 
show results.
    You mentioned, Senator Young, at the beginning that you 
need to be able to explain to your own constituency where the 
money goes, what does that mean. Of course, we, ICRC, work in 
the most difficult places. It is difficult to explain to 
anybody that we are doing humanitarian actions in Somalia or in 
Ukraine or in Afghanistan and get some impressive support. 
People say what the hell are you talking about there? How does 
that work? Right?
    So I think there is a need for us to be able to show 
results, to be specific. We do, including humanitarian actions 
right now, results-based management. So when we do, in fact, 
our own way to plan, we do it very differently from the United 
Nations. Be aware of that.
    We do a yearly base. We do by target audience. We are very 
specific. So as a humanitarian organization, you can be 
humanitarian but also be very specific about what you want to 
be able to achieve. That is one.
    B, where there is transparency and where your government 
has played an important role is on the quality funding--quality 
funding. It is not just the money. It is also giving flexible 
funding, and that has made an enormous difference.
    Can I just give you one anecdote? Northeast Nigeria. Nobody 
was interested about Northeast Nigeria 5 or 6 years ago--
nobody, not a single person.
    My team at the time said, 6 years ago, we have a problem 
here. It took us 4 years of operation to, little by little, 
start to understand the problems and get tolerated by the 
people and also by the groups and the government on the spot.
    We were able to do that because we had flexible funding, 
because the United States Government is giving us this flexible 
funding.
    So that I found extremely useful. But at the same time, 
when you do have flexible funding, you need to be able to show 
that you were efficient and it is fine. You need to be able, 
when you are evaluated, you are the best in terms of finance, 
in terms of diversification of aid. We do have systems, which 
are very robust, and we do have it.
    And we had long discussions with your government over time, 
and it works. So I do not know if I answered your question, 
because this is not the United Nations. This is my 
organization.
    But what I wanted to tell you is, yes, it has an influence 
on the way we work on our policies, on our practice, including 
in the most difficult places. And this is absolutely critical, 
if we want to be able to get the support we need from people.
    Senator Young. So I will just add this, again being 
respectful of the chairman and my colleagues' time.
    If you have additional ideas--I know this is a big, complex 
question that lends itself to a multifaceted and extensive 
response. I think it is incumbent upon us to really scrutinize 
how these agencies are organized in furtherance of their 
mission. I want to work with the State Department, our U.N. 
Ambassador, and others, but I need some input from experts like 
yourself moving forward on this area.
    Ms. Lindborg. If I could just briefly note, there was a 
very landmark event last May, the World Humanitarian Summit, 
that really crystallized and articulated some of the very 
important advances that have been made over the last few years, 
in part in response to the extraordinary strain on the 
humanitarian system. But ways to make it more effective, more 
efficient, that is an agenda that has yet to be fully realized, 
but it provides an important blueprint of where to put energies 
and how to move forward smarter, more effective assistance.
    Senator Young. That is instructive. Thank you.
    The Chairman. Thank you. Thank you very much.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here and for your very 
important work at this very critical and difficult time.
    Last week, the Armed Services Committee, which I am a 
member of, had presentations from the CENTCOM commander, 
General Votel, who has Yemen as part of his area of oversight, 
and the AFRICOM commander, General Waldhauser, who has Nigeria 
and Somalia as part of his area of oversight.
    One of the things that General Waldhauser said that I 
thought was very important, he talked about the importance of 
addressing development and governance and economic issues in 
Nigeria, and the impact of that on the rest of the continent of 
Africa because of Nigeria's size and importance.
    But can you talk about how, if at all, you work with the 
American military and other military efforts in the countries 
that we are talking about today, and particularly in Yemen and 
Somalia, because I very much appreciate the chair and ranking 
member asking what we can do today that is going to help the 
situation in those two countries?
    Ms. Lindborg. Sure. One of the things that U.S. Institute 
of Peace has been doing has been to work with both our DOD, our 
state, as well as our AID colleagues to conduct tabletop 
exercises.
    We recently completed a series of exercises looking at the 
Lake Chad Basin, where the Nigerian crisis has provided 
regional disruption. Cameroon, Chad, Niger, are all affected by 
Boko Haram and what has been going on.
    The interests of General Waldhauser and his associates are 
how do we better coordinate across all of these tools so that 
we have a shared understanding of the problem that we are 
trying to solve, and make a better, more effective difference 
both in the medium and into the long term?
    We have a lot of resources. If we coordinate them together, 
we can have a far greater impact.
    Senator Shaheen. So are they engaged in the current, 
immediate crisis in both Yemen and Somalia?
    Ms. Lindborg. They are not engaged with the delivery of 
humanitarian assistance, but they are engaged on the security 
dimension of those crises.
    Senator Shaheen. So the protection for aid workers?
    Ms. Lindborg. More about the ongoing threats presented by 
the terrorist groups that are part of the conflicts, that are 
creating the conditions for famine to occur. It is an essential 
part, and it is essential that they be part of a joint 
understanding of the problem.
    Senator Shaheen. Yes?
    Mr. Daccord. If you allow me, Senator? We are lucky enough 
to meet American troops everywhere on the ground because we are 
together.
    When it comes to CENTCOM, of course, there is a lot of work 
that we do together, AFRICOM also. So we are used to that.
    And I think we, in fact, value--and I hope they value us 
also--their reading of the situation. They have a very, very 
good understanding of what happens. They have very clear, I 
would say, military and security objectives, and they 
distinguish them very clearly from our own, I would say, 
humanitarian objective.
    And I think we value having this very regular but also very 
strategic contact on a daily basis.
    Senator Shaheen. Thank you.
    Ms. Lindborg, USIP has been very involved in the role of 
women in conflict areas, and the importance of women being at 
the table and negotiating in the conflicts.
    So I want to ask you about that, but I also want to point 
out that I have been part of a task force that has been done by 
the Center for Strategic and International Studies that just 
came out with a report this week on addressing adolescent girls 
and women, and empowering them in four areas--maternal and 
child health, family planning, reproductive health, nutrition, 
and HPV vaccines. And this is the report.
    Mr. Chairman, I would like to share this with anybody on 
the committee who has an interest.
    But I know this is a longer term issue than the current 
topic of today's discussion, but can you talk about how 
important it is to make sure that, as we are engaging in these 
conflict areas and areas where there are tragedies like the 
famines we are facing, that we engage with women and make sure 
that they are at the table because of their importance to the 
long-term solutions for many of these situations?
    Ms. Lindborg. Absolutely. And congratulations on your work 
on that important study.
    You know, women and girls and children disproportionately 
suffer from these kinds of complicated conflicts and famine. 
The health implications, as you discussed earlier, are 
overwhelming.
    And they are also those who often are on the frontlines of 
needing to take care of their families. Often, they are the 
ones who are the refugees and have to hold together family and 
often community cohesion.
    It is very important to include women in the longer term 
rebuilding of these communities, both at the community level 
and at the peace table. And we are seeing that when women are 
included in these peace processes, they are far more likely to 
be enduring. There is a lot of research on this.
    So from taking care of women at the health level to 
empowering them as leaders is an absolutely essential aspect of 
addressing these crises, short term and long term.
    Senator Shaheen. Thank you very much.
    And, Mr. Chairman, just another reason why we need to 
advance the Women, Peace, and Security Act.
    The Chairman. I am sure we will get that done in some form.
    And if you want to enter that document into the record, you 
are welcome to do that.
    So without objection, we will enter it in.

    [The material referred to above can be downloaded from the 
following url:]
    https://www.csis.org/analysis/her-health-her-lifetime-our-
world

    The Chairman. Thank you for the comments.
    Senator Rubio?
    Senator Rubio. Thank you.
    Thank you both for being here. All of these areas are 
important. I want to focus on South Sudan for a moment.
    I want to read to you from the first paragraph of the 
Enough Project. It is in combination with The Sentry, a 
partnership with Sentry, which is an investigative initiative. 
Here is what they write: ``South Sudan leaders have stoked 
violent conflict, committed mass atrocities, and created a 
manmade famine. The main source of the conflict is the 
competition for spoils in which factions, based primarily on 
ethnic and historical allegiance, compete violently for power 
and the massive opportunities for self-enrichment available 
through looting national budgets, exploiting natural resources, 
and manipulating state contracts.''
    Would either of you disagree with this assessment?
    Ms. Lindborg. No.
    Mr. Daccord. No. I would be more specific.
    Senator Rubio. You want to be more specific? Is that what 
you said?
    Mr. Daccord. No, I think South Sudan, I agree with the 
statement, but I think then we have to understand exactly which 
dynamic it is. South Sudan is not something that you can look 
at in a vacuum. It is a country that has been created a few 
years ago. The leaders there have been part of a guerilla which 
is there for a very, very long time.
    So I agree with the statement, but I think we need to put 
the statement, I would say, in context to understand exactly 
what we are dealing with.
    Senator Rubio. Well, I appreciate that. I think what we are 
dealing with, according to this, according to the statement 
from Mr. Gottlieb where he said that we hold all the warring 
parties, including the government, the opposition, and 
affiliated armed groups responsible for the hostilities that 
upend and, even worse, target civilian lives and livelihoods.
    You also had a large number of aid workers killed trying to 
provide services in South Sudan.
    So here is what I wanted to ask about. You have sensed from 
some of the members a sense of urgency about what we can do 
now. And the resources, I do not think any of us disagree--
although in 2013, I believe South Sudan was the largest 
recipient of aid in the world, and yet this remains.
    So the resources, I do not think, are in dispute. We all 
agree we want to continue to be a part of it. But that is not 
enough unless we get through the access problem.
    The access problem requires a whole-of-government approach, 
from our perspective. One of the suggestions that they make is 
that we need to, in essence, we have an opportunity to hit 
these leaders and their criminal networks in their wallets 
using the power of the U.S. dollar, which they rely on almost 
exclusively, to create leverage in support of a renewed peace 
initiative that can probably bring stability and peace to the 
region.
    And they go on to talk about changing the calculations of 
South Sudan's leaders through this leverage. The aim is to 
bring them to the table, for example, to negotiate a new 
ceasefire. But the leverage would involve OFAC designation of 
individuals and entities both in the government and in the 
opposition, that it should start with mid- to senior-level 
targets.
    They also believe that we can reach out to financial 
institutions to take extra steps to safeguard against the 
laundering of the proceeds of corruption originating in South 
Sudan. The U.S. Department of Treasury's Financial Crimes 
Enforcement Network should issue an advisory that identifies 
particular, very specific categories of money laundering 
associated with plutocracy in South Sudan, including real 
estate transactions.
    The point being, the argument that they make in this 
report, which I am compelled to agree with, is that the only 
way we are going to get to the access problem here is not 
simply by providing more resources but by using leverage, 
particularly the unique leverage the United States brings to 
bear to pressuring these criminals on both sides to the table 
to organize a ceasefire and, as a result, allow access to 
humanitarian relief and the safety of the workers that provide 
it.
    My question to both of you is, do you believe that it would 
be a positive exercise of American power to use the threat of 
sanctions against these individuals on both sides of this 
conflict to bring them to the table to resolve this in a way 
that allows access for food and medicine for these people that 
are on the verge of starvation and death in South Sudan?
    Ms. Lindborg. I have heard of the Enough proposal. I think 
that it is critical to bring U.S. leadership to bear. We have 
used threats through U.N. security resolutions. They are not 
always borne out.
    If there is a way to use the sanctions that Enough is 
proposing to really make a difference and to galvanize action 
and to jumpstart a very moribund peace process, I think it is a 
very important idea to explore and look at the feasibility.
    For this, we need to refill the special envoy position. We 
have long looked at local leadership as being key, local 
regional leadership at IGAD or the African Union as key for 
moving forward that process. That is still true. And it will be 
important to have U.S. leadership and all of our tools as a 
part of moving that forward.
    This has been a very difficult, nonproductive peace process 
to date, but we will not be able to solve this problem if we do 
not engage more effectively regional leadership, African Union 
leadership, and, ultimately, look at these kinds of creative 
uses of sanctions.
    American leadership, I believe, will be absolutely 
essential.
    Mr. Daccord. Senator Rubio, I do value--again, my limit is 
that I am a humanitarian, so I will not look at these questions 
of sanctions and all of that. But as a humanitarian, and also 
my limits--and when it comes to South Sudan, what is requested 
is not more humanitarian response. What is requested today is a 
political response, very clearly.
    Here, the framework is very clear. You have international 
humanitarian law, which very specifically says what the parties 
to the conflict need to do. And there is an Article 1 of the 
Geneva Convention that says respect and ensure respect.
    What I would really find interesting is that, for once, the 
community of states are ready to do that. In South Sudan, it is 
a place where it is possible to guarantee, in fact, the respect 
of international humanitarian law. Absolutely. And it is a 
political and diplomatic endeavor.
    The Chairman. Thank you very much.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    So would each of you support targeted sanctions in South 
Sudan as a strategy which the United States should be 
supporting?
    Ms. Lindborg. I think so. I mean, I do not know enough 
about the specifics and who would be targeted, but we should 
look very carefully and lean into those possibilities that will 
make a difference.
    Senator Markey. Great.
    Mr. Daccord?
    Mr. Daccord. In general, I am careful about sanctions. If I 
look at the humanitarian side of the sanctions, normally, the 
people suffering from the sanctions are never the ones you are 
targeting.
    Senator Markey. I appreciate that.
    Mr. Daccord. That is my problem. So my point 2, though, is, 
as a humanitarian organization, as I mentioned before, we are 
extremely interested that the government but also all the 
parties to the conflict are really abiding by international 
humanitarian law, and that should be the focus of the 
international community.
    Senator Markey. Members of this body called for targeted 
sanctions in the Congo last year on the elections issue, 
targeted those who were repressing democracy, and now we see 
some success. We are going to have to keep our fingers crossed. 
So that would be one of our goals.
    I would like to focus as well on climate change and the 
impact it may have had in South Sudan. We have been warned for 
40 years about the impacts of carbon dioxide in the atmosphere 
and the impact that it was having on sub-Saharan Africa. And 
now we see droughts, followed by famine, followed by limited 
resources inside of the country, followed by fights over those 
limited resources.
    So can you talk a little bit, Mr. Daccord, about the need 
for the United States, for the world, to lead on climate 
change, so that what we see in South Sudan is not exacerbated 
and what we see in South Sudan is not replicated in other parts 
of the world?
    Mr. Daccord. Senator, you are taking me a bit outside of my 
zone of competencies and knowledge. If I look at the pure 
humanitarian perspective, what we see, of course, is that, in 
the region of East Africa over the last 15 years, there is a 
clear impact of climate change in the country and in the entire 
region, not only South Sudan, by the way. You see that in 
Somalia, Kenya very clearly.
    What you see is it has had a dramatic impact on the way 
people are living. With the livestock, they had to go down, in 
fact, because there was drought everywhere for a long, long 
time. We know that El Nino has an enormous impact right now in 
the region. We know that very clearly.
    Now this is my, I would say, responsibility as a 
humanitarian to be able to integrate that dimension when we 
respond there.
    Senator Markey. So should we the United States be a leader 
in reducing the carbon dioxide so that we do not see a further 
exacerbation of this increased desertification that we are 
seeing all across the world? Do you think we should take the 
lead, sir?
    Mr. Daccord. Senator Markey, what I would find important is 
that the United States would understand, in fact, when they 
look at a crisis like the crisis we are talking about all the 
different components of the crisis.
    Senator Markey. Right. So should we take the lead?
    Mr. Daccord. That is not what I am saying.
    Senator Markey. Okay. I hear you.
    Ms. Lindborg, should we take the lead?
    Ms. Lindborg. U.S. leadership is absolutely essential for 
making movement on global problems. We are seeing that over and 
over again.
    Senator Markey. Do you put climate change in that category?
    Ms. Lindborg. As Yves has said, we have seen an ever-
fasting cycle of drought in the Horn of Africa that is leading 
to exacerbated and increased humanitarian----
    Senator Markey. And do you agree with the experts that it 
is caused by human activity that is warming the planet 
dangerously and causing an exacerbation of these problems? Do 
you agree with that?
    Ms. Lindborg. So, like Yves, I am not a scientist.
    Senator Markey. Okay.
    Ms. Lindborg. But from a humanitarian perspective----
    Senator Markey. I understand. You see the consequences of 
it.
    Ms. Lindborg. We are seeing the consequences of increased 
cycles of extreme drought.
    Senator Markey. You see the consequences of it. I 
appreciate that. Yes. The science is clear, and the impact is 
also clear.
    I would like to move over, if I could, to Haiti. There are 
many, many people who are in need of help in Haiti. In 
December, the United Nations asked for $400 million for a 
strategy to address a cholera outbreak started by U.N. 
peacekeepers in Haiti. Two days ago, the New York Times 
reported that the total amount raised so far is $2 million--$2 
million to help these people in Haiti to deal with the long-
term consequences of this cholera introduced by U.N. 
peacekeepers about 10 years ago.
    What are your perspectives on this U.N. appeal for such 
severe humanitarian need and how it has failed so spectacularly 
in terms of actually getting help from the United Nations to 
deal with the problem?
    Mr. Daccord?
    Mr. Daccord. Again, you mentioned perspective. I think what 
I found so difficult is to see that Haiti today still, in terms 
of population and system, is not equipped to be able to absorb 
shock whatsoever, right? And after now 7 or 8 years of 
intervention of the international community, I think there are 
reflections of how we do it together and what we are able to 
do, to make sure that we are able not only to respond to 
emergency--the emergency was rather well responded. It was not 
perfect, but it was----
    Senator Markey. In the immediate, but not for the long 
term. It is just sitting there waiting for a repetition of the 
same situation.
    Mr. Daccord. Exactly. I agree with that.
    Senator Markey. So are you disappointed in the U.N.?
    Mr. Daccord. I am disappointed not in the U.N. I am 
disappointed about the global response.
    Senator Markey. So you are disappointed in the individual 
countries in the U.N.? Is that what you are saying?
    Mr. Daccord. No, I am disappointed about the global 
response. I find it difficult as always--as a humanitarian, 
what I am trying to do is to see what is our contribution. We 
have a very clear humanitarian perspective. We are trying to 
see that, but we also see the limits of what it is.
    Typically, in Haiti, for years, we have really downsized 
our presence because we thought that we as humanitarians need 
to focus on where really there is a need to do that.
    Senator Markey. Yes. What I am afraid of, Mr. Daccord, is 
that because the global response, just how well each one of the 
individual members did on it, I think in the Trump era, with 
his America First attitude and saying we are going to retreat 
on the State Department budget, other budgets that would have 
the United States being a leader, it is going to give other 
countries which have not been so great anyway further excuse 
not to themselves participate.
    And then the global response, unfortunately, is going to 
leave these poor people in even worse situations even though it 
was a problem that was caused by the introduction of cholera by 
the United Nations peacekeeping forces into that country. And 
now they are going to be living with it forever, if this period 
of time this Trump America First attitude is perpetuated in our 
own country but around the world it is replicated.
    So I just think it is a huge long-term problem.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I would note the incredible discipline of our witnesses to 
stay within humanitarian confines.
    Senator Young?
    Senator Young. Thank you.
    Mr. Chairman, I just want to build on this question of 
access in various areas, particularly South Sudan. It has been 
invoked a number of times. A related question is accountability 
when there is a lack of access.
    Mr. Gottlieb noted in his written testimony that the aid 
workers have been harassed, attacked, or killed in South Sudan, 
with at least 72 aid workers dying there since 2013.
    Mr. Daccord, you cite the widespread violation of 
international humanitarian law, tax on health facilities, 
health care workers, so on and so forth. As you know, Rule 31 
of Customary International Humanitarian Law states that 
humanitarian relief personnel must be respected and protected. 
Rule 35 prohibits directing an attack against a zone 
established to shelter the wounded, the sick, and civilians 
from the effects of hostilities. And that applies to all 
parties, including Russia, the Assad regime, their deliberate 
and repeated targets on hospitals in Aleppo, I might note.
    Mr. Daccord, in all conflict zones where ICRC operates, are 
you making any effort to document these attacks on humanitarian 
personnel so we can bring the perpetrators to justice?
    Mr. Daccord. First of all, Senator, thank you for the 
question. Your assessment is quite right.
    I think we see a real issue when it comes to access, and 
not just access of humanitarians. My concern is access for 
people, communities to health, for example.
    And you mentioned the issue of health. What we have seen 
over the last few years is a systematic pressure attacking 
health structure. And by the way, not only in South Sudan, in 
Yemen, as an example, in Afghanistan, in Syria, by all the 
parties from day one of the conflict. And this is really 
dramatic.
    So what we do as ICRC, we first of all, are part of 
something larger, but, as an organization, we document that, of 
course. But we do not then put that at disposal of the public. 
What we do is we document that because we engage in bilateral 
discussions, confidential discussions with the people in 
charge. So we do discuss with, in fact, in the case of Syria, 
we do discuss with the government, with the rebels, with also 
international governments. You mentioned Russia and others. And 
we engage with them on very specific elements.
    We did the same with governments on specific questions in 
Afghanistan, for example, in Syria, in Iraq. I think it is 
important to be able to do it. That is the way we do. Others 
will do differently. Other organizations will then really 
recommend and look and be more public about that.
    And I value, in fact, this different perspective, but our 
perspective is to document and to have a real very, very 
thorough discussion over time with, in fact, the people that 
are directly responsible. We do not do that only about health. 
We do that, as you mentioned, about the tensions and all that. 
And this is something we maintain very carefully.
    Senator Young. And I can understand, on account of your 
mission, why that sort of neutral disposition would make sense. 
You try to mediate these conflicts. Tell me if I am 
misrepresenting it, but you try to come to some more positive 
resolution, short of outing these individuals and passing this 
information on to authorities that might pursue legal action 
against the perpetrators. Correct?
    Mr. Daccord. Senator, we are a very pragmatic organization.
    Senator Young. Yes.
    Mr. Daccord. In fact, we adapt to the reality of the world. 
And I think if we would start to pass information to anybody, 
my role as the CEO, I will have to withdraw my people from most 
of the places where we are.
    You mentioned trust, trust is a critical element, and we 
need to have a minimum of distrust from, in fact, the parties 
to the conflict. So when we are confidential, they need to 
trust us that we are really confidential. If they start to make 
a mix between us and justice, it will be extremely difficult 
for us.
    Senator Young. I understand your perspective.
    Ms. Lindborg is chomping at the bit to chime in here.
    Ms. Lindborg. I just wanted to note that my current 
organization, the U.S. Institute of Peace, works on the ground 
in conflict areas not providing humanitarian assistance but 
looking at how to manage or resolve violent conflicts. And to 
resolve any kind of conflict where there has been violence and 
terrible things that have occurred, you need to look at this 
issue of accountability, and there will be different solutions 
in different contexts both at national and international and 
also local levels.
    So, for example, USIP worked in Tikrit in Iraq after the 
massacre by Daesh, by ISIL, of 1,600 Iraqi cadets. When Daesh 
left, there was enormous distrust between the Sunni and Shia 
communities and the possibility of cycles of tribal revenge.
    So we brought the tribal sheikhs, the Shia and the Sunnis, 
together to navigate and negotiate a peace agreement, so that 
they would only hold the specific perpetrators accountable, not 
their entire tribes. And that ultimately enabled about 300,000 
Sunni families to return.
    So justice and accountability is absolutely essential to 
conclude and heal from violent conflicts, and there are both 
large-scale processes and local-level processes that need to be 
brought to bear.
    Senator Young. Okay. It sounds as though there may be some 
work to be done at the U.S. Federal Government level with 
respect to documenting legal action and bringing certain 
perpetrators under certain circumstances to justice, but we 
have to be very careful about this.
    We will continue the dialogue later. Thank you.
    The Chairman. Thank you.
    Senator Cardin?
    Senator Cardin. Let me just compliment Senator Young on 
that line of questioning. I understand the confidentiality and 
the trust issues, but this is violation of international 
protocols, and I do think we need to document.
    I know, Mr. Daccord, your people are at risk. The numbers I 
think are public. As I understand, your frontline people have 
paid, in some cases, the ultimate sacrifice for their service.
    Do you have just the numbers of people that have been 
injured or killed from the International Red Cross?
    Mr. Daccord. I always found it difficult to look at numbers 
because, as we know, it does not really reflect the issues.
    If I look at just my own organization, we just lost, months 
ago, six of my colleagues in Afghanistan, for example. If I 
look at then the Red Crescent and Red Cross family, in Syria, 
it is the highest number since World War II. The Syrian Red 
Crescent, which is part of our family, has lost 57 volunteers 
and paid staff in Syria over the last 6 years.
    That tells you a little bit of what is happening when you 
are on the frontline, which is very clear. And the access 
questions and the ability to negotiate, we are living in a 
world where fragmentation is there. You have a lot of 
fragmentation among, in fact, armed groups, which makes things 
extremely difficult because you need to make sure that they 
understand who you are, at least tolerate you. And that 
requires long-term work.
    That is one of the big questions. When you focus on the 
four countries we just mentioned--Yemen, Somalia, Northeast 
Nigeria, and South Sudan.
    And the answer to your question, Mr. Chairman, is let's 
make sure that the aid will really go to organizations that are 
able to deal with access. That is the critical issue. You want 
to reach out to the population that deserves to receive help.
    Senator Cardin. I thank you for that.
    I just really would make this point. If the United States 
did everything I wanted to do, and the international community 
did everything that they should do, we would still need you 
because of the credibility you have in the community and your 
ability to provide frontline help that we would not be able to 
do as governments.
    So I just really want to thank you so much for what you do, 
both of you, what you do and the sacrifices that you make, in 
really dealing with what is I think the key value of America, 
and that is our international responsibilities for humanitarian 
assistance. So thank you.
    The Chairman. Thank you both.
    This will conclude our hearing. I thank you for your 
testimony to focus on the short-, medium-, and longer term 
issues.
    You know, we have the great privilege of serving on this 
committee and having a better worldview than most have because 
of all the information that we have on a daily basis and is 
incoming from our staffs and other people. It is amazing that, 
on one hand, the many good things that organizations like both 
of yours do. It is also so disheartening to know that we have 
leaders around the world that would deny aid to their own 
people.
    Yesterday, the event we had relative to Caesar where, 
again, we see the documentation of Assad torturing his own 
people, having it lay siege to communities where people cannot 
get medicines, as a matter of fact, specific medicines, what is 
happening in the four regions that we are focused on today.
    So there is always going to be more work than we can do, 
and there are always going to be people that we could have and 
should have gotten aid to that we cannot. But, thankfully, the 
United States of America, generally speaking, has played a 
leading role. And I think that most people on this committee 
want to do everything they can to ensure that.
    And we are very thankful that organizations like the two of 
you, and the two of you as individuals, exist. Thank you so 
much for being here.
    For the record, if you will, it will remain open until the 
close of business Friday. There will be some additional QFRs 
that you all are very familiar with. In a reasonable amount of 
time, if you can respond, we would appreciate it.
    Thank you, again. The meeting is adjourned.
    [Whereupon, at 11:57 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Responses of Gregory Gottlieb to Questions 
                    Submitted By Senator Todd Young

    Question. Mr. Gottlieb, in order to inform the optimal allocation 
of finite resources and get further ahead of crises, has USAID 
undertaken any systematic and methodical effort to assess, measure, and 
report resilience in regions that could be vulnerable to humanitarian 
crises? Do you regularly share those results with this committee? If 
not, will you? Would a systematic and ongoing assessment of resilience 
in regions vulnerable to humanitarian crisis help us optimally allocate 
finite resources?

    Answer. USAID established the Famine Early Warning System Network 
(FEWS NET) in 1985 to provide state-of-the-art, evidence-based early 
warning analyses on both current and forecasted acute food insecurity. 
FEWS NET works with U.S. government science agencies, national 
government ministries, international agencies and NGOs to continually 
refine and provide systematic, forward-looking analysis and reporting 
on 36 of the world's most food-insecure and chronically vulnerable 
countries on a monthly basis, with timely alerts on emerging or likely 
crises and regular in-person updates as needed. We are happy to share 
these with the committee.
    USAID, other donors and governments use this early warning 
information to optimally allocate finite humanitarian assistance 
resources on an ongoing basis. This information has also enabled USAID 
and others to respond earlier, more effectively, and more cost 
efficiently to emerging crises. For example, early warning information 
gathered through remote sensing and on-the-ground data collection in 
Ethiopia in 2015 enabled the Government of Ethiopia, USAID and others 
to get ahead of and manage the 2016 El Nino drought despite it being 
more severe and farther reaching than the 1985 drought that led to 
widespread famine.
    We have also used historical trends in these data to target longer-
term development investments in countries and regions that are 
vulnerable to recurrent humanitarian crises to address the underlying 
causes of these crises and strengthen the ability of vulnerable 
households, communities and countries to mitigate, adapt to and recover 
from them. These investments in resilience, including through Feed the 
Future programs and the Office of Food for Peace's development food 
assistance programs, are most effective when they are aligned with 
country-led efforts and investment, such as Ethiopia's Productive 
Safety Net Programme (PSNP) and Kenya's Ending Drought Emergencies 
(EDE) initiative.
    A study by the UK's Department for International Development (DFID) 
in Ethiopia and Kenya estimates that, over the long-term, each $1 
invested in building resilience will result in $2.9 in reduced 
humanitarian spending, avoided losses and development benefits. Recent 
evidence from the lowlands of Ethiopia (figure 1) confirms the value of 
these investments. Households in communities reached by USAID's 
comprehensive resilience programs were able to maintain their food 
security status during the severe El Nino drought in 2016, while 
households in other communities experienced a significant decline.
    Similar efforts to build resilience to recurrent crises that result 
in repeat, large-scale humanitarian emergencies are underway in 
chronically vulnerable areas of Niger, Burkina Faso, Mali, Uganda and 
Malawi. Pilot resilience programs in Somalia show promise, but have 
been much smaller in scale due to the challenging operating 
environment.
    More broadly, USAID also has other tools to monitor fragility 
globally, including to assess vulnerability to conflict and other 
crises at the country level, and to forecast countries' risk of 
instability. USAID uses these tools to prioritize more in-depth country 
analysis, to inform strategic planning, and to contribute to 
interagency policy discussions on fragility and instability.

    Question. Mr. Gottlieb, in your prepared statement, you state that 
the United States' ``commitments to humanitarian efforts also enable us 
to push for greater transparency and improved efficiencies in the 
international system, including in the U.N. agencies.'' Can you provide 
some specific examples of where you see a need for greater transparency 
and improved efficiencies in U.N. Agencies?

    Answer. A central element of our approach to humanitarian financing 
includes using our position as the largest humanitarian donor to 
advance transparency and improve efficiencies in the international 
system, including with U.N. Agencies. In addition to our role on U.N. 
Agency Executive Boards and other donor advisory bodies, the primary 
vehicle for the conversations around transparency and efficiencies is 
the Grand Bargain.
    In 2015, the then-UN Secretary-General Ban Ki-moon appointed a High 
Level Panel for Humanitarian Financing (HLPHF) to work on finding 
solutions to the widening gap between the current levels of 
humanitarian need and the available resources. One of the 
recommendations from the HLPHF was a package of reforms aiming to make 
humanitarian financing more effective, referred to as the Grand 
Bargain. Under the Grand Bargain, U.N. Agencies have committed to 
advance transparency and improve inefficiencies across several issues. 
Likewise, donors have committed to reviewing practices which may have 
inadvertently incentivized inefficiencies.
    The key areas which have been identified for U.N. Agencies to 
improve transparency and make efficiency gains, through the HLPHF and 
articulated in the Grand Bargain, include:

   Improve open-data: U.N. Agencies need to make advancements in using 
        a shared open-data standard and common digital platform to 
        enhance transparency and decision-making. The U.N.'s Financial 
        Tracking System (FTS) is a well-established platform for 
        recording international humanitarian aid contributions, while 
        the International Aid Transparency Initiative (IATI) is the 
        most advanced platform which covers both humanitarian and 
        development data. Following the Grand Bargain, FTS recently 
        completed its overhaul to align with the IATI standard as a 
        first step in this wider process. In alignment with this 
        priority, USAID's largest humanitarian partner, the U.N. World 
        Food Program (WFP), has undertaken major reforms in its 
        internal architecture that will enable direct donor access to 
        data reporting systems.

   Increase support to local responders: Governments, communities, and 
        civil society actors are the first responders in any disaster. 
        By increasing training and funding directed toward local and 
        national responders, supporting national coordination 
        mechanisms, and improving the quality of assistance delivered 
        by local responders, U.N. Agencies can achieve efficiency gains 
        through reducing the number of intermediary partners, as well 
        as promote local ownership and strengthen local civil society.

   Increase the use of cash-based programming: When appropriate, cash-
        based assistance can be an efficient and effective humanitarian 
        intervention. USAID frequently supports cash-based modalities 
        for emergency response, depending on the context. Sufficient 
        oversight must be in place, and cash must align with people's 
        needs and market conditions. Under the right conditions, cash 
        assistance can be an effective way to meet needs, help the 
        local economy, reduce storage and transportation costs, reduce 
        risks to aid workers and beneficiaries through electronic 
        transactions, and make the most of limited humanitarian aid 
        budgets.

   Reduce duplication and management costs: Through maximizing 
        efficiencies in procurement and logistics for commonly required 
        goods and services, shared procurement across U.N. Agencies can 
        leverage the comparative advantage of the agencies and promote 
        innovation. Key areas which have been identified for U.N. 
        Agencies to review include: travel, fleet management, 
        insurance, shipment tracking, pipelines, IT services and 
        equipment, commercial consultancies, and common support 
        services. An effective example of this kind of initiative can 
        be seen in the Rome-Based Agency collaboration, where the three 
        U.N. Food Agencies (WFP, Food and Agriculture Organization, and 
        International Fund for Agricultural Development) have already 
        achieved, under firm Executive Board--including the U.S. 
        Government--guidance, significant efficiencies in the areas of 
        program, administration, and oversight.

   Increase the use of innovative technology: Advances in technology 
        can reduce the costs and increase the effectiveness of 
        humanitarian assistance. Several new approaches include: mobile 
        technology for needs assessments and monitoring; digital 
        platforms and mobile devices for financial transactions; 
        communications with affected populations via call centers or 
        SMS messaging; biometrics, such as fingerprint identification; 
        and sustainable energy. Not all approaches will be successful 
        in every context, but U.N. Agencies should be employing these 
        technologies when appropriate. USAID has been pressing for 
        greater use of biometric identification technology in refugee 
        populations served by WFP and the United Nations High 
        Commissioner for Refugees (UNHCR) which improves targeting and 
        reduces duplication, leading to more effective and efficient 
        programs.

   Harmonize partnership agreements and reporting requirements: 
        Different U.N. Agencies often work with the same set of 
        partners in humanitarian responses. By harmonizing partner 
        agreements and reporting requirements across U.N. Agencies, the 
        burden of administrative management by implementing partners 
        can be reduced, allowing a shift of time and resources towards 
        delivering assistance.

   Put in place comparable costs structures: Financial management 
        approaches across the U.N. Agencies is varied. Greater and more 
        consistent transparency as to what direct and indirect costs 
        are included in various program and budget components is needed 
        in order to achieve standard definitions of overhead and 
        management costs.

   Improve joint and impartial needs assessments: Significant efforts 
        have been made in the past few years to strengthen the quality 
        and coordination of needs assessments, including within the 
        framework of the Humanitarian Needs Overview exercise. However, 
        the current approaches to joint needs assessment, across U.N. 
        Agencies and NGOs, still falls short of meeting the decision-
        making requirements for various stakeholders, and all too often 
        U.N. appeals do not prioritize the most urgent needs in a given 
        response.

   Advance fraud, waste and abuse mitigation systems: All U.N. 
        Agencies need to advance their systems to mitigate fraud, waste 
        and abuse. Specifically, the U.N. Agencies, as a collective, 
        need to address these issues jointly rather than in individual 
        channels as is the current practice. While respecting the 
        relevant legal restrictions, U.N. Agencies need to identify 
        ways to share incident reports and other information across 
        agencies where appropriate. A collective approach which allows 
        this type of sharing across U.N. Agencies will support cross-
        learning and strengthen each individual agency's defenses 
        against fraud, waste and abuse.

    Question. In November of 2016, the Office of the Inspector General 
for USAID published an audit of USAID's financial statements for fiscal 
years 2016 and 2015. The IG audit identified one material deficiency 
and four significant deficiencies. Mr. Gottlieb, please provide my 
office and the committee a written response explaining the steps that 
USAID has taken to address the deficiencies identified in the IG audit.

    Answer. USAID is working diligently to address the deficiencies 
identified by Inspector General (IG) auditors in the fiscal year (FY) 
2016 Agency Financial Report. USAID is currently conducting a detailed 
analysis of our business processes to address concerns raised in the IG 
audit. This analysis includes further documenting processes, revising 
policies as needed, training staff, and assuring measures are in place 
to ensure the quality and accuracy of USAID information.
    Please find below the steps USAID is taking to address each 
deficiency and the expected results identified in the Audit Report No. 
0-000-17-001-C: Office of Inspector General Audit of USAID's Financial 
Statements for Fiscal Years 2016 and 2015.
    USAID has made substantial progress in addressing the one material 
weakness and the four significant deficiencies identified in the audit.
Material Weakness: USAID Did Not Reconcile Its Fund Balance With 
        Treasury Account With the Department of the Treasury and 
        Resolve Unreconciled Items in a Timely Manner (Repeat Finding)
    The IG audit identified one material weakness related to USAID's 
fund balance with Treasury. As a result, the Agency has expended 
significant resources to improve our business processes and tools to 
ensure timely reconciliation with Treasury in order to address the 
material weakness.
Significant Deficiency: Intragovernmental Transactions Remain 
        Unreconciled (Repeat Finding)
    To address this deficiency identified by the IG audit, the Agency 
has reengineered its business process for reconciliation of its 
intragovernmental transactions (IGT), with a focus on timely follow up 
with our trading partners and ongoing reconciliation between Treasury 
and USAID. USAID has already realized significant improvement through 
our efforts working with our trading partners and Treasury as evidenced 
by the decrease in the number and dollar amounts of IGT transactions 
that remain unreconciled.
Significant Deficiency: USAID Did Not Comply With Federal Standards in 
        Accounting for Reimbursable Agreements (Repeat Finding)
    USAID will address the non-compliance of reimbursable agreements 
with accounting standards once the upgrade to our core financial system 
is implemented in FY 2018.
Significant Deficiency: USAID Did Not Maintain Adequate Records of 
        Property, Plant, and Equipment
    USAID reviewed the underlying causes of the reporting errors and 
has established new quality assurance processes to ensure timely and 
accurate data collection and reporting of vehicles and real property 
overseas.
Significant Deficiency: USAID Did Not Promptly Investigate and Resolve 
        Potential Funds Control Violations
    USAID has reduced the backlog of funds control violation cases by 
assigning additional resources and modifying our business processes to 
streamline case evaluation, resulting in making major progress toward 
addressing the fourth deficiency.
                               __________

              Response of Hon. Nancy Lindborg to Question 
                    Submitted By Senator Todd Young

    Question. Ms. Lindborg, in your prepared remarks, you state that 
``The U.N.'s Office for the Coordination of Humanitarian Affairs (OCHA) 
is appealing for $5.6 billion in 2017 to address famines in Yemen, 
South Sudan, Nigeria and Somalia, $4.4 billion of which is required 
urgently by June . . .'' What portion of that $4.4 billion appeal has 
been pledged and delivered? Do you believe that goal will be met by 
June? If it is not met, what do you see as the specific consequences?

    Answer. As of Tuesday, March 28, only $572 million of the $4.4 
billion appeal for aid has been received by the U.N. That accounts for 
just 13% of the total needed by June 2017 to engage effectively in 
response and prevention efforts in the countries at risk of famine. 
Barring massive change to the size of pledges and their rapid 
disbursement over the next two months, it is highly unlikely that the 
full $4.4 billion will be raised by June.
    For reference, according to OCHA, of the four countries facing 
famine, Somalia is closest to meeting its appeal, having raised 22.3% 
of the priority requirements for food security, health, nutrition and 
water, sanitation and hygiene (WASH). However, Somalia's appeal is the 
smallest of the four countries at risk of famine. Yemen, which faces 
the largest humanitarian crisis of the four nations in question, has 
only raised 7% of its appeal.
    Status of Priority Requirements for Famine Response and Prevention:

    Nigeria--$64 million raised out of $734.1 billion (9%)

    Somalia--$160 million raised out of $720 million (22%)

    South Sudan--$231 million raised out of $1.25 billion (18%)

    Yemen--$117 million raised out of $1.7 billion (7%)

    There will be dire humanitarian, regional and global consequences 
if this international appeal is not met.
    In March, the head of U.N. Office for the Coordination of 
Humanitarian Affairs (OCHA) and U.N. Emergency Relief Coordinator 
Stephen O'Brien told the U.N. Security Council that, ``without 
collective and coordinated global efforts, people will simply starve to 
death'' and ``many more will suffer and die from disease.'' As I noted 
in my testimony, current estimates place 20 million people at risk of 
starvation, and if the 2011 Somali famine is any indication, we should 
expect half of the dead to be children.
                         potential consequences
    The legacy of this humanitarian disaster will linger long after the 
dead are buried. A generation of those children who survive will be 
irreversibly stunted by the severe malnutrition they experienced. This 
nutrition-related stunting radically changes the course of a child's 
life by impairing the development of their brain, lowering IQ, and 
weakening immune systems. This stunting, in combination with the 
limited access to school that accompanies humanitarian disaster, will 
leave the region with millions of people who lack the skills or 
experience necessary to build resilient societies and responsive 
governments.
    These famines have forced over nearly two million people to flee. 
The severity of this crisis is on display in Bidi Bidi, a nearly 
inhabited grassland in Uganda that has developed into the world's 
largest refugee camp in less than six months. Bidi Bidi currently plays 
host over 300,000 people. These refugees add to the record 65 million 
people displaced globally and have a destabilizing effect on the 
region, which in turn has the potential to affect Europe with continued 
unchecked flows of refugees.
    As we have seen in previous famines, gains in economic development 
will likely be reversed with the potential for the development, revival 
or expansion of illicit market activities. Currently, all four nations 
are contending with insurgencies and violent extremist organizations, 
which exploit extreme hunger and structural inequality to recruit, 
forcibly and voluntarily, more people into their ranks. These black 
markets will further enable the civil wars and terrorist operations 
that are already underway in Nigeria, Somalia, Yemen, and renewed in 
South Sudan. A tepid international response to these famines may prove 
to be fertile recruitment fodder for terror organizations like Al-
Shabaab, Boko Haram Al-Qaeda and ISIL. The sum total of a failure to 
respond would leave millions dead and regional conflicts more 
intractable, with the potential of more and longer term regional 
instability and economic volatility coupled with the potential for 
continued spread of terrorist organizations.

                                  [all]
</pre></body></html>
